<html>
<title> - EXAMINING THE COVID-19 RESPONSE IN NATIVE COMMUNITIES: NATIVE LANGUAGES ONE YEAR LATER</title>
<body><pre>[Senate Hearing 117-34]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 117-34

                  EXAMINING THE COVID-19 RESPONSE IN NATIVE 
                    COMMUNITIES: NATIVE LANGUAGES ONE YEAR 
                    LATER

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 26, 2021

                               __________

         Printed for the use of the Committee on Indian Affairs
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-041 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------


                      COMMITTEE ON INDIAN AFFAIRS

                     BRIAN SCHATZ, Hawaii, Chairman
                 LISA MURKOWSKI, Alaska, Vice Chairman
MARIA CANTWELL, Washington           JOHN HOEVEN, North Dakota
JON TESTER, Montana                  JAMES LANKFORD, Oklahoma
CATHERINE CORTEZ MASTO, Nevada       STEVE DAINES, Montana
TINA SMITH, Minnesota                MIKE ROUNDS, South Dakota
BEN RAY LUJAN, New Mexico            JERRY MORAN, Kansas
       Jennifer Romero, Majority Staff Director and Chief Counsel
     T. Michael Andrews, Minority Staff Director and Chief Counsel
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 26, 2021.....................................     1
Statement of Senator Hoeven......................................    29
Statement of Senator Murkowski...................................     2
    Prepared statement...........................................     3
Statement of Senator Schatz......................................     1
Statement of Senator Smith.......................................     5

                               Witnesses

Alvanna-Stimpfle, Bernadette ``Yaayuk'', Director, Kawerak Eskimo 
  Heritage; Chair, Alaska Native Language Preservation and 
  Advisory Council...............................................    21
    Prepared statement...........................................    23
Harper, Leslie, President, National Coalition of Native American 
  Language Schools and Programs..................................    14
    Prepared statement...........................................    15
Hoskin, Jr., Hon. Chuck Principal Chief, Cherokee Nation.........    10
    Prepared statement...........................................    11
Laeha, Ka`iulani, CEO, `Aha Punana Leo...........................    17
    Prepared statement...........................................    19
Sauve, Michelle, Acting Commissioner, Administration for Native 
  Americans, Department of Health and Human Services.............     5
    Prepared statement...........................................     7

                                Appendix

Hussey, Sylvia M., Ed.D., CEO, Office of Hawaiian Affairs, 
  prepared statement.............................................    35
Response to written questions submitted by Hon. Ben Ray Lujan to 
  Michelle Sauve.................................................    37

 
                    EXAMINING THE COVID-19 RESPONSE 
                     IN NATIVE COMMUNITIES: NATIVE 
                        LANGUAGES ONE YEAR LATER

                              ----------                              


                        WEDNESDAY, MAY 26, 2021


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:05 p.m. in room 
628, Dirksen Senate Office Building, Hon. Brian Schatz, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Good afternoon. During today's oversight 
hearing, the fourth of this Committee's COVID-19 response 
series, we will examine the pandemic's impact on Native 
American languages. We will also consider two bills, S. 989, 
the Native American Language Resource Center Act of 2021, and 
S. 1402, the Durbin Feeling Native American Languages Act of 
2021.
    More than 30 years ago, Congress formally rejected past 
Federal policies that tried to silence Native American 
languages. When we enacted the Native American Languages Act in 
1990, the U.S. expressly recognized the inherent rights of 
freedoms of Native Americans to use their indigenous languages.
    Since then, Congress has continued to build on the 
foundation of this law, passing legislation such as the Esther 
Martinez Native American Languages Preservation Act of 2006 
that supported maintenance and revitalization of Native 
American languages.
    But the most important work has been done by Native 
communities themselves at the grassroots level to build their 
own Native language schools and programs and revitalize their 
languages and their cultures. These efforts have been 
transformational. In Hawaii, more than 18,000 people now speak 
Hawaiian at home, up from just 2,000 Hawaiian-language speakers 
in the 1970s.
    But even with increasing Federal support over the last 
three decades, many Native languages remain endangered. Then 
COVID-19 hit. Native language schools had to be suspended in 
terms of their operations, and efforts to record and document 
endangered languages came to a halt. Native language speakers 
were lost to the virus.
    Congress responded by including $20 million in dedicated 
funding to address the pandemic's impact on Native languages in 
the American Rescue Plan. But while help is here, this 
Committee's work to support Native languages does not stop at 
COVID-19 recovery. The two bipartisan Native language bills 
that we have before us today will advance this conversation, 
improving Federal support for culturally based Native language 
instruction and ensuring Native languages are used and continue 
to grow and get support.
    The Native American Language Resource Center Act will 
authorize funding to establish a national center to share best 
practices and resources that support Native language use, 
revitalization and instruction. The Durbin Feeling Native 
American Language Act, named after renowned Cherokee linguist 
and Vietnam Veteran who passed away on August 19th, 2020, will 
make the Federal Government more accountable by setting clear 
goals and asking for direct input from Native communities about 
how Federal resources can be more effectively managed to 
support and revitalize Native languages.
    Before I turn to the Vice Chair, I would like to extend my 
aloha to Ms. Laeha, and my thanks to our witnesses for joining 
us today. I look forward to hearing the unique perspectives of 
each of you and I look forward to this conversation.
    Vice Chair Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. My apologies to 
you and to the Committee and to the staff for my late arrival. 
I thank you for being so good and conscientious in passing 
through S. 1471, the Safeguarding Tribal Objects of Patrimony 
Act of 2021. Senator Heinrich has worked on it so hard. I have 
been a partner with him on that for a period of time. So we 
thank you for that.
    And we look forward to not only being able to get it 
through the Committee, but doing more. Speaking with you and 
your leadership in helping us unbottle some of our bills that 
we do a good job moving them through the Committee, then they 
get stalled out on the Floor. We want to be working with you to 
try to get these important measures signed into law. We have a 
couple of them in front of us today. You have given good detail 
in your opening here.
    But know that the emphasis that we are placing on Native 
languages is so critically important. I think we recognize that 
these are more than just words. They are a vital part of 
indigenous culture and identity, and an important tool to 
understand indigenous histories and continue cultures for 
future generations.
    As you know, as I have done my opening statements, I tried 
to incorporate into our Committee proceedings some words of 
phrases from some of the 23 Native languages that are spoken in 
Alaska. Some of them are pretty simple, cama'i, I have that one 
down. That is a greeting in the Alutiiq and with the Yup'ik 
people.
    But each time I have done this, I have done so with the 
intent to recognize the importance of preserving these 
languages, that this action, language normalization, is a 
recommendation from the Alaska Native Preservation and Advisory 
Council. This is an entity that was formed in 2012 to advise 
both the Governor and the State of Alaska, the legislature 
there, on programs, policies and projects to provide for cost-
effective preservation, restoration and revitalization of 
Native languages.
    So as I use these words and phrases, I hope to bring some 
of that culture to this Committee.
    Mr. Chairman, as you have pointed out, in some parts of the 
Country, we have seen a resurgence in languages; in others we 
have seen things go in the opposite direction. Of the more than 
20 Alaska Native languages, only one can be considered stable. 
Two of them are no longer spoken, and other half of them have 
fewer than 20 remaining speakers.
    That is pretty telling. Only one can be considered stable, 
two no longer spoken, over half of them, more than 20, have 
fewer than 20 remaining speakers. So we have some work to do.
    We will hear this afternoon from one of our witnesses, Mrs. 
Yaayuk Bernadette Alvanna-Stimpfle. Bernadette serves as the 
Chair of the Alaska Native Language Preservation and Advisory 
Council. She teaches Inupiaq. Her family is originally from 
King Island, Ukivok. She spoke only Inupiaq until she entered 
kindergarten at age 5. She is one who has not only been a 
strong leader in Native preservation in Alaska, but she is part 
of a cohort of Alaska Native language preservation specialists 
who have chosen to pursue a Ph.D. at the University of Hawaii, 
your Hilo campus, with the Hawaiian and Indigenous Language and 
Culture Revitalization Program. Great lady there, we are 
pleased to have her before the Committee.
    Mr. Chairman, I have a lengthy and very well-articulated 
opening statement that I would like to incorporate in full as 
part of the record, and have an opportunity to turn to our 
witnesses.
    [The prepared statement of Senator Murkowski follows:]

  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator from Alaska
    Cama'i! Good afternoon and thank you Chairman Schatz for convening 
today's hearing on Native Languages.
    Native languages are more than just words, they are a vital part of 
indigenous culture and identity and an important tool to understand 
indigenous histories and continue these cultures for future 
generations.
    As many of you know, I am attempting to incorporate into our 
Committee proceedings words and phrases from the 23 Native languages 
spoken in Alaska. Sometimes it has been a simple greeting as Cama'i--
which is a greeting in the language of the Alutiiq and Yup'ik people. 
Each time I have done so with the intent to recognize the importance of 
preserving these languages. In fact, this action--Language 
Normalization--is a recommendation from the Alaska Native Language 
Preservation & Advisory Council; an entity formed in 2012 to advise 
both the Governor and State Legislature of Alaska on programs, 
policies, and projects to provide for the cost-effective preservation, 
restoration, and revitalization of Alaska Native languages in the 
state.
    The words and phrases are part of the culture and everyday life of 
the various Indigenous communities we represent here in the United 
States Senate. Each time I use these words and phrases, I hope to bring 
some of that culture to this Committee.
    With that said, before I proceed to the rest of my opening 
statement I want to take a moment to discuss something that I hope is 
not lost upon everyone participating in today's hearing. The history of 
federal Indian policy pertaining to American Indian, Alaskan Native, 
and Native Hawaiian languages has not always been great. In fact, at 
times it was outright harmful to native communities. In many instances, 
those previous harmful policies are the cause of a cycle of trauma, 
which the Committee has seen reflected in the issues facing many native 
communities today.
    However, in stark contrast to those harmful policies the Committee 
is here today with a different purpose. Today the Committee will 
discuss two bills that provide much needed language preservation 
resources to tribes, and hold accountable federal agencies mandated 
with implementing policy that provides assistance for Native language 
preservation and resiliency. So today, I am both hopeful and committed 
to continue moving this body in a positive direction to strengthen 
Native languages.
    We will begin that effort today by looking at two bills before the 
Committee, Chairman Schatz's bill, S.989, the Native American Language 
Resource Center Act of 2021. This bill, as Chairman Schatz had already 
described, would authorize the Department of Education to establish, 
operate, and staff a Native American language resource and training 
center that will serve as a resource to improve the capacity to teach 
and learn Native American languages.
    And S. 1402, the Durbin Feeling Native American Languages Act of 
2021. I am proud to again join as co-lead on this measure to protect 
Native languages. Our bill will improve interagency coordination and 
require a survey of federal programs on their work involving Native 
languages. Through these efforts, Native communities across the country 
can continue revitalizing and protecting their identity through 
language.
    I look forward to receiving testimony from our panel regarding 
these two pieces of legislation, and the potential impact they may have 
in Native communities.
    The Committee will also receive testimony from the Administration 
for Native Americans on their efforts to assists in Native language 
preservation. Section 11004 of the American Rescue Plan Act of 2021 
directs the Administration for Native Americans to provide $20 million 
in emergency grants for Native American language preservation and 
maintenance during the COVID 19 pandemic. I look forward to hearing 
from Acting Commissioner Sauve on what ANA is doing to ensure the 
survival and continuing vitality of Native languages during and after 
the pandemic.
    Finally, I want to introduce and welcome one of today's hearing 
witnesses, Mrs. Yaayuk Bernadette Alvanna Stimpfle. Bernadette serves 
as the Chair of the Alaska Native Language Preservation & Advisory 
Council, and teaches the Inupiaq language. Her family is originally 
from Ugiuvak (King Island). She spoke only Inupiaq until she entered 
kindergarten at age 5. In addition to the many hats that Yaayuk wears, 
she is also part of a cohort of Alaska Native language preservation 
specialists who have chosen to pursue a Ph.D. at the University of 
Hawaii, Hilo Campus with the Hawaiian and Indigenous Language and 
Culture Revitalization Program.
    Mr. Chairman as you know there are many things our two states 
share, and this now includes training our Alaska Native language 
preservation specialists. My staff have also been briefed previously by 
the `Aha Punana Leo on Hawaiian language immersion programs. I've also 
heard from Native language leaders in Alaska, such as Dr. Worl, that 
they owe their thanks to the Hawaiians. What they are doing with their 
young people--they gave many Native people of Alaska a sense that they 
can also do it. I know this sharing and learning has led to lifelong 
friendships between Alaskans and Hawaiians.
    As pointed out by Professor Twitchell, from the University of 
Alaska Southeast, who is also a graduate of the Hawaiian and Indigenous 
Language and Culture Revitalization PhD. program at the University of 
Hawaii Hilo, there is an ongoing and worsening language crisis taking 
place in Alaska. Of the more than 20 Alaska Native languages, only one 
can be considered stable, 2 of them are no longer spoken, and over half 
of them have fewer than 20 remaining speakers.
    I would like to end my opening statement with a quote from the 
Advisory Council's 2020 report. Tlingit Language and Culture Bearer 
Marsha Guneiwti Hotch said, ``I am a speaker of my language and one of 
the younger birth speakers. Alaska Native languages are very important 
to me because it is the indigenous peoples right to have access to 
their language. Learning about indigenous history and learning who we 
are helps us to be connected to the lands and our ancestors who have 
lived and roamed these lands from time immemorial. . . Alaskan Native 
Languages are not just important to me as a speaker but even to the 
rest of the world.'' I believe this quote perfectly captures why this 
Committee needs to continue highlighting this issue, and why I will 
continue to work on it.
    I look forward to working with you, Mr. Chairman, and the rest of 
the Committee on this important issue.
    Thank you, quyanaq, to all of our witnesses for participating 
today. We welcome and value your comments and answers to questions from 
the Committee.
    With that Mr. Chairman I look forward to this discussion.

    The Chairman. Thank you, Vice Chair Murkowski.
    We will now turn to our witnesses. I am going to introduce 
them all in turn, and when it comes to the testifier from 
Minnesota, I will turn it over to Senator Smith.
    First, we have Ms. Michelle Sauve, Acting Commissioner, 
Administration for Native Americans. Then we will have The 
Honorable Chuck Hoskin, Jr., Principal Chief, Cherokee Nation.
    Senator Smith, would you like to do your introduction now?

                 STATEMENT OF HON. TINA SMITH, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Smith. Thank you. I would be delighted to.
    Thank you so much Chair Schatz and Vice Chair Murkowski. 
Thank you so much for holding this hearing today.
    It is my honor to introduce one of our witnesses today, 
Leslie Harper, who is President of the National Coalition of 
Native American Language Schools and Programs. Leslie is a 
member of the Leech Lake of Ojibwe in Bemidji, Minnesota. So 
boozhoo, Leslie.
    Ms. Harper has been an innovator in founding the Niigaane 
language immersion program, which teaches the Ojibwe language 
to students kindergarten through sixth grade, and driving the 
conservation on Ojibwe language preservation. Leslie's insight 
as an educator and an administrator is really impressive. I 
think that the Committee will learn a lot from her testimony 
about why Native language instruction is important in Minnesota 
and across the Country.
    Leslie, I look forward to hearing your testimony about the 
benefits of Native language education and preservation. We are 
very happy to have you with us today. Miigwech for being here.
    The Chairman. Thank you, Senator Smith.
    Following Ms. Harper, we will have Ms. Ka?iulani Laeha, 
Chief Executive Officer of `Aha Punana Leo, from Hawaii. Then 
we will Ms. Bernadette Alvanna-Stimpfle, Director of Kawerak 
Eskimo Heritage and Chair, of Alaska Native Language 
Preservation and Advisory Council in Alaska.
    I want to remind our witnesses that your full written 
testimony will be made part of the official hearing record. 
Please try your very best to keep your statement to no more 
than five minutes, so that members have time for questions. We 
are also in the middle of a series of Floor votes, so the 
better we can keep to the five minutes, the more efficient our 
hearing will be.
    We will start with Ms. Sauve.

       STATEMENT OF MICHELLE SAUVE, ACTING COMMISSIONER, 
 ADMINISTRATION FOR NATIVE AMERICANS, DEPARTMENT OF HEALTH AND 
                         HUMAN SERVICES

    Ms. Sauve. [Greeting in Native language.] Chairman Schatz, 
Vice Chair Murkowski, members of the Committee, it is my honor 
to testify before you today about the impact of COVID-19 on 
Native languages and cultures.
    I am Michelle Sauve, the Acting Commissioner of the 
Administration for Native Americans, and Acting Deputy 
Assistant Secretary for Native American Affairs, Administration 
for Children and Families, for ACF. I am also a proud member of 
the St. Regis Mohawk Tribe.
    As the Acting Commissioner, I oversee implementation of the 
Native American Programs Act, including the Esther Martinez 
Immersion, EMI, and Native Language Preservation and 
Maintenance Grant programs. ANA's language programs provide the 
largest Federal support for indigenous communities to ensure 
the survival of their languages.
    I want to acknowledge the historic appropriations in the 
American Rescue Plan Act that respond to the COVID-19 pandemic 
in American Indian, Alaska Native, Native Hawaiian and Pacific 
Islander communities. The ANA funds will more than double the 
amount of support ANA can provide for Native languages in a 
typical year.
    In almost every indigenous community, the number of Native 
language speakers has dwindled. Many surviving languages are at 
the point of critical endangerment. There are now over 200 
tribal communities without living speakers of their mother 
tongue.
    ANA currently supports 49 Native language preservation 
maintenance and EMI grants and five Native language community 
coordination pilot projects. In total, these awards support 27 
federally recognized tribes and 22 Native organizations, and 
the preservation of 47 languages in 18 States.
    ANA grantee evaluations show that teaching children 
traditional languages helps build intergenerational connections 
with fluent and proficient elders, and supports parents and 
children to deepen their bonds, by learning a common tongue 
that has been part of their families for generations prior to 
colonization.
    Native language grantees and their beneficiaries repeatedly 
share that increased language uptake in the community deepens 
pride in their culture and renews their sense of hopefulness. 
Language and culture contribute to community cohesiveness and 
can contribute to the prevention factors that negatively impact 
health.
    COVID-19 has had a devastating effect on the elderly 
population who are the keys to cultural continuity. The 
susceptibility of elders to COVID-19 has also had a critical 
impact on our language grantees. Elders are indigenous 
communities' knowledge keepers and are integral to maintaining 
language vitality. Elders are often the only first language 
speakers, and sometimes the only speakers for many Naive 
languages. For example, the Kiowa Tribe in Oklahoma recently 
lost two of the tribes five fluent elder speaker mentors to 
COVID-19.
    Prior to the pandemic, there were only 20 fluent Kiowa 
speakers out of a population of 12,000. Kiowa is a language 
islet, meaning no other tribe speaks this or a related 
language.
    COVID-19 has also had a severe impact on ANA-funded 
projects. Tribal nations shut down government operations, 
including language revitalization programs. In the mist of the 
pandemic, communities have had to adapt and identify new 
approaches to programming. The first one, an early learning 
center which serves children 6 months to 36 months in 
Anchorage, Alaska, was able to post songs, read books and 
produce cultural videos in Yup'ik through YouTube.
    Similarly, a Yuchi Tribe in Sapulpa, Oklahoma, operates the 
Yuchi House, a place for tribal members aged three months to 95 
years to come together to begin the language and embrace the 
Yuchi Way. They ceased in-person language instruction and 
transitioned to online teaching, using platforms to assess 
youth reading and writing that allowed students and elders to 
meet and learn language in real-time. However, the note remote 
learning is not as effective as in-person instruction and some 
elders are not able to use the online platform.
    ANA appreciates this Committee's support for Native 
language programs. Our goal is to reach the most tribes and 
languages possible. In planning for American Rescue Plan 
emergency language awards, ANA had a tribal consultation, a 
community listening session, and conducted additional outreach 
to the Pacific. Participants wanted as much of the emergency 
funding as possible to be used for direct payments.
    The announcement of the availability of emergency funds 
will be issued this week, and ANA will do additional outreach, 
particularly to tribes that have existing languages that have 
not previously received ANA funding.
    Thank you for your commitment to supporting Native 
communities. I look forward to working with you to ensure the 
vitality of Native languages and cultures. I will be happy to 
answer any questions you may have.
    [The prepared statement of Ms. Sauve follows:]

      Prepared Statement of Michelle Sauve, Acting Commissioner, 
  Administration for Native Americans, Department of Health and Human 
                                Services
Introduction
    Chairman Schatz, Vice Chairman Murkowski, and Members of the 
Committee, it is my honor to testify before you today about the impact 
of COVID-19 on Native languages and cultures. I am Michelle Sauve, the 
Acting Commissioner for the Administration for Native Americans (ANA) 
and Acting Deputy Assistant Secretary for Native American Affairs, 
Administration for Children and Families (ACF). I am also a proud 
member of the St. Regis Mohawk Tribe and a new student of my ancestral 
language, Kanien'keha.
    As the Acting Commissioner, I oversee the implementation of the 
Native American Programs Act, including the Esther Martinez Immersion 
(EMI) and Native Language Preservation and Maintenance grant programs. 
ANA's language programs provide the largest federal support for 
Indigenous communities to ensure the survival of their languages. I 
have been involved in the ANA Native languages work for a decade and 
appreciate the opportunity to contribute to this hearing.
Overview of Native Languages and its Importance
    I want to acknowledge the historic appropriations in the American 
Rescue Plan Act that respond to the COVID-19 pandemic in American 
Indian, Alaska Native, Native Hawaiian, and Pacific Islander 
communities. These funds will more than double the amount of support 
ANA can provide for Native Languages in a typical year. American 
Indian, Alaska Native, Native Hawaiian, and Pacific Islander 
communities continue to face serious threats to their languages, with 
many factors contributing to this precarious position. In 2018, ANA 
testified at a hearing before this Committee examining efforts to 
maintain and revitalize Native Languages for future generations. \1\ 
That testimony addressed federal policies designed to eliminate Native 
languages and communities, child and family policies that removed 
disproportionate numbers of children into non-Indigenous families, and 
assimilatory and abusive boarding schools that severely disrupted 
intergenerational language transmission.
---------------------------------------------------------------------------
    \1\ https://www.govinfo.gov/content/pkg/CHRG-115shrg32539/html/
CHRG-115shrg32539.htm
---------------------------------------------------------------------------
    There are now over 200 tribal communities without living speakers 
of their mother tongue. \2\ In almost every Indigenous community, the 
number of Native language speakers has dwindled, and many surviving 
languages are at the point of critical endangerment. The Native 
American Languages Act of 1992 and the Esther Martinez Native American 
Languages Preservation Act of 2006 both directed much-needed funding 
towards ANA's social and economic development efforts, which expanded 
them to include robust language revitalization programs.
---------------------------------------------------------------------------
    \2\ https://www.govinfo.gov/content/pkg/CHRG-115shrg32539/html/
CHRG-115shrg32539.htm
---------------------------------------------------------------------------
    ANA currently supports 49 Native Language Preservation and 
Maintenance and Esther Martinez Immersion grants and five Native 
Language Community Coordination pilot projects. In total, these awards 
support 27 federally recognized tribes and 22 Native organizations, and 
the preservation of 47 languages in 18 states, including Hawaii, 
Alaska, Washington, Montana, Minnesota, New Mexico, Oklahoma, North 
Dakota, and South Dakota.
    ANA grantee evaluations show that teaching children traditional 
languages helps build intergenerational connections with fluent and 
proficient Elders and supports parents and children to deepen their 
bonds by learning a common tongue that has been part of their families 
for generations prior to colonization. Native language grantees and 
their beneficiaries repeatedly share that increased language uptake in 
the community deepens pride in their culture and renews their sense of 
hopefulness. Language and culture contribute to community cohesiveness 
and can contribute to the prevention of factors that negatively impact 
health.
    Through grantee impact assessments, ANA has learned that language 
projects require tremendous time, effort, and resource investments 
within communities that are already responding to many needs. ANA 
grants empower many of these communities to carry out critical language 
programs that provide intergenerational language learning and that 
connect Elders with youth, certify language teachers, document 
languages, awaken sleeping languages, and create new language learning 
resources.
Impact of COVID-19 on Native Peoples and Languages
    A 2020 Centers for Disease Control and Prevention (CDC) study found 
that the age-adjusted COVID-19-associated mortality among American 
Indians and Alaska Natives was 1.8 times that of non-Hispanic Whites. 
\3\ We also know that COVID-19-associated mortality varied by 
geographic area and, in one state, for example, the mortality rate 
among American Indians and Alaska Natives was 3.8 times that of Whites. 
\4\ Inequities that existed prior to the pandemic put Indigenous people 
at higher risk, and the resources have been critical to addressing 
their disproportionate burden. Beyond access to quality health care, 
other determinants of health, such as healthy foods, stable housing, 
and education, culture matters greatly in addressing health inequities. 
Culture informs local issues and helps identify and frame problems, 
solutions, and how communities measure success. \5\ COVID-19 had a 
devastating effect on the elderly population who are the keys to 
cultural continuity.
---------------------------------------------------------------------------
    \3\ Centers for Disease Control and Prevention. (2020, December 
11). COVID-19 Mortality Among American Indian and Alaska Native 
Persons--14 States, January-June 2020. Morbidity and Mortality Weekly 
Reports. Retrieved from https://www.cdc.gov/mmwr/volumes/69/wr/
mm6949a3.htm.
    \4\ Centers for Disease Control and Prevention. (2020, April 9). 
COVID-19 Incidence and Mortality Among American Indian/Alaska Native 
and White Persons--Montana, March 13-November 30, 2020. Morbidity and 
Mortality Weekly Reports. Retrieved from https://www.cdc.gov/mmwr/
volumes/70/wr/mm7014a2.htm.
    \4\ Roundtable on the Promotion of Health Equity and the 
Elimination of Health Disparities; Board on Population Health and 
Public Health Practice; Institute of Medicine. Leveraging Culture to 
Address Health Inequalities: Examples from Native Communities: Workshop 
Summary. Washington (DC): National Academies Press (US); 2013 Dec 19. 
A, Culture as a Social Determinant of Health. Retrieved from https://
www.ncbi.nlm.nih.gov/books/NBK201298/.
---------------------------------------------------------------------------
    The susceptibility of Elders to COVID-19 has also had a critical 
impact on language grantees. Elders are Indigenous communities' 
knowledge keepers and are integral to maintaining language vitality. 
Each Elder has invaluable cultural and linguistic knowledge that is 
essential in the continuing existence of language, culture, and 
traditions. Elders are often the only first-language speakers, and 
sometimes the only speakers, for many Native languages. For example, 
the Kiowa Tribe's Native Language Community Coordination program in 
Oklahoma recently lost two of the Tribe's five fluent Elder speaker-
mentors to COVID-19. Prior to the pandemic, there were only 20 fluent 
Kiowa speakers out of a population of 12,000. Kiowa is a language 
isolate, meaning no other Tribe speaks this or a related language.
    COVID-19 has also had a severe impact on ANA-funded projects. In 
response to the pandemic, tribal nations shut down government 
operations, including language revitalization programs. Poor broadband 
infrastructure, physical distancing mandates, and tribal government 
funding shortfalls made normal functioning impossible. Communities that 
were able to continue operations experienced significant delays 
throughout the pandemic. These delays include an inability to provide 
in-person language instruction as required by EMI, cancellation or 
delay of key project objectives and activities such as language fairs 
and community outreach events, and of course, the serious health 
concerns preventing inter-generational language activities with Elders.
Challenges and Opportunities
    In the midst of the pandemic, communities have had to adapt and 
identify new approaches to programming. ANA grantees have leveraged all 
available resources, including digital infrastructure to allow their 
efforts to persist, even if at a distance. For example, the Keres 
Children's Learning Center, an EMI grantee in Cochiti Pueblo, New 
Mexico, reported that not all language learners and Elders have access 
to the Internet, which caused delays for both youth and adult learners.
    Another grantee, the Clare Swan Early Learning Center, which serves 
children 6 months to 36 months in Anchorage, Alaska, was able to post 
songs, read books, and produce cultural videos in Yup'ik through 
YouTube. These wonderful supplemental resources can continue to be used 
by families post-pandemic, but the best language learning, especially 
for children this young, must be in person.
    Similarly, the Yuchi (also spelled Euchee) Tribe in Sapulpa, 
Oklahoma operates ``The Yuchi House,'' a place for Tribal members aged 
3 months to 95 to come together to be in the language and embrace the 
Yuchi way. They ceased in-person language instruction and transitioned 
to online teaching utilizing platforms such as Kahoot and Zoom to 
assess youth reading and writing and allow students and elders to meet 
and learn language in real time. However, they note remote learning is 
not as effective as in-person instruction, and some Elders are not able 
to use the online platform. Yuchi is another language isolate.
    These innovations underscore the ability of Indigenous communities 
to use the $20 million in Emergency Native Language funding provided 
through the American Rescue Plan Act in adaptable and creative ways. 
ANA grantees have played a pivotal role--particularly during the 
pandemic--in recording, teaching, and preserving languages that could 
be lost altogether. ANA is hopeful that our language funding and 
support will continue these trends building stronger, more resilient 
communities in the wake of the pandemic.
Emergency Funding from the American Rescue Plan Act
    ANA appreciates this Committee's support for Native language 
programs, and our goal is to reach the most Tribes and languages 
possible. In planning for American Rescue Plan Act Emergency Language 
awards, ANA held a tribal consultation on March 26, a community 
listening session on March 29, and a special outreach session with the 
governments of Guam and the Northern Mariana Islands on April 26.
    Among other factors, the intent of the three ANA engagements with 
Native communities was to solicit feedback on allocation of the $20 
million appropriation. Most participants expressed a need to grow 
capacity for Native language programs, especially among tribes with 
smaller populations and resources, tribes or territories that have two 
or more languages, and tribes that lack dedicated and ongoing funding 
for language programs. Participants wanted as much of the emergency 
funds as possible to be used for direct payments and requested 
information on what has worked for previous language projects.
    The announcement of the availability of emergency language funds 
has been released, and ANA is doing additional outreach, particularly 
to tribes that have existing languages but have not previously received 
ANA funding.
Durbin Feeling Native American Languages Act of 2021
    With respect to the Durbin Feeling Native American Languages Act of 
2021 (S. 1402) introduced by Chairman Schatz and co-sponsored by Vice 
Chairman Murkowski, Mr. Feeling played a major role in Cherokee 
language usage by developing a Cherokee Language syllabary in word 
processing to complete computer documents in their own language. This 
remarkable accomplishment has led to other innovative ways American 
Indians and Alaska Natives have worked to preserve, maintain, and grow 
their own languages.
    The bill builds on the memorandum of agreement established by ANA 
and the Departments of Education and the Interior to coordinate and 
support Native language work. ANA stands ready to provide technical 
assistance on the bill should it be requested.
Closing
    Thank you for this opportunity to discuss the impact COVID-19 has 
had on Native languages and cultures, and for your commitment to 
supporting Native communities. I look forward to working with you to 
ensure the vitality of Native languages and cultures. I would be happy 
to answer any questions you may have.

    Senator Murkowski. [Presiding] Thank you, Ms. Sauve.
    We now turn to the Honorable Chuck Hoskin, Jr. Mr. Hoskin?

STATEMENT OF HON. CHUCK HOSKIN, JR., PRINCIPAL CHIEF, CHEROKEE 
                             NATION

    Mr. Hoskin. Mr. Chairman, Madam Vice Chairman, and 
distinguished members of the Committee, I thank you. Osiyo from 
the Cherokee Nation Reservation. I express my appreciation to 
testify on what I want you to know is one of my greatest 
responsibilities as Principal Chief of the Cherokee Nation. It 
is in our oath of office that we will do all within our power 
to preserve the culture, heritage and traditions of the 
Cherokee Nation. That certainly includes our language.
    Preserving our language is preserving our Cherokee 
identity, what makes us unique as a people. The heritage and 
traditions of our tribe are rooted in the language. Our 
language contains knowledge and ways of thinking that can never 
be fully captured in translation.
    We have faced many foes and obstacle since European contact 
that have eroded our culture and have robbed us of our 
language. I am not talking today, though, about those 
historical obstacles, those historical foes. Certainly, war and 
removal and broken treaties, decades of assimilation, 
termination era Federal policies, did great injury to the 
Cherokee Nation and our language.
    Today, our enemy is the passage of time and the fragility 
of human life. As I come before you today, the Cherokee Nation, 
a tribe of 392,000 citizens, we have about 2,000 Cherokee 
citizens anywhere who can speak Cherokee fluently. That is less 
than 1 percent of our population who can speak the language, 
who hold that in their hearts and in their minds. The average 
of these speakers is about 70. Experts estimate that we lose 
about 15 speakers a month as they pass away.
    COVID-19 did particular damage to our effort to save the 
language. More than 50 fluent speakers died of COVID-19. Now, 
every life is irreplaceable; we have great sorry over every 
loss of life, particularly during COVID. But when you lose a 
speaker, you lose more than another tribal citizen, as great a 
loss as that is. You lose a national treasure.
    So our great question today in the Cherokee Nation is, can 
we meet this moment with all of those challenges, the passage 
of time, the fragility of human life, and save our language? If 
we allow our language to perish, we are certainly proud of so 
many other accomplishments, from leading Indian Country on 
health care, from building a diverse business portfolio that 
fuels our growth in so many areas, provides economic security, 
we can look at our strides in education and housing, none of 
that will matter a great deal in generations if the Cherokee 
language is lost, because it will mean that we have lost 
something irreplaceable that is inextricably linked to our 
identity.
    I signed our version of the Durbin Feeling Language Act in 
2019. I proposed it when I took office. The Council of the 
Cherokee Nation approved it. We dedicated $16 million to 
language preservation efforts. We are investing $5 million of 
that into a new language center in Tahlequah named the Durbin 
Feeling Language Center. We are investing more in housing for 
fluent speakers next door. We are creating a language barracks, 
so that the young people that go to our immersion school, for 
example, can walk a short distance with their teachers over to 
some elders who live in a fluent speaking community, just steps 
away.
    Our goal is to create a language campus, a language 
village, that will be our best tool in saving the Cherokee 
language. We will have dozens of programs in this facility, 
including our master apprentice program, where adults commit 
two years, they are paid, to learn the Cherokee language. It 
will also be a focal point of our other effort, which is to 
create opportunities for language speakers to earn a living, 
whether it is in the creative arts, whether it is in teaching, 
whether it is anywhere where there is a demand for the Cherokee 
language. That demand is growing the more we put resources into 
this effort.
    Our efforts also harness technology. We partner with 
Microsoft, Apple, and Google, to make sure that our language is 
accessible to a new generation of young people who want to 
speak the language. We are very proud of the multi-million-
dollar efforts that we have undertaken. We are very proud of 
the passion that our staff brings to it.
    And I want you to know how proud we are of the United 
States Senate and the leadership of this Committee for 
considering the Durbin Feeling Native American Languages Act. 
Durbin Feeling was a great man. I knew Durbin Feeling. He was a 
patriot of the United States, serving the Country, and he was a 
savior of the Cherokee language. We do so much of this work in 
his name. He worked tirelessly. S. 1402 would build upon his 
work and extend his legacy for all of Indian Country.
    I thank you for the opportunity to visit with you today. I 
would be glad to answer any questions when the time is 
appropriate.
    [The prepared statement of Mr. Hoskin follows:]

Prepared Statement of Hon. Chuck Hoskin, Jr., Principal Chief, Cherokee 
                                 Nation
    Chairman Schatz, Vice Chairman Murkowski, and distinguished members 
of the Senate Committee on Indian Affairs.
    Osiyo. On behalf of Cherokee Nation and its 392,000 citizens, I 
thank you for this opportunity to testify on one of my greatest 
responsibilities--the protection, preservation, and revitalization of 
the Cherokee language. It is my honor to speak with you today. Through 
this testimony I will share some of the innovative ways we are working 
to preserve our language, speak to COVID-19's horrific impact on our 
Native speakers, and reiterate Cherokee Nation's strong support for 
both S. 1402, the Durbin Feeling Native American Languages Act of 2021, 
and S. 989, the Native American Language Resource Center Act of 2021.
    Preserving the Cherokee language is preserving Cherokee identity, 
as the heritage and traditions of the tribe are rooted in our language. 
Our language contains knowledge and ways of thinking that can never be 
fully captured in translation. Quite simply, the Cherokee language is 
the heart and soul of our tribe. The same is true for tribes throughout 
the United States. Accordingly, the UN Declaration on the Rights of 
Indigenous Peoples recognizes that we have a right to use, revitalize 
and transmit our languages to future generations. And, the UN General 
Assembly has declared 2022-2032 the International Decade of Indigenous 
Languages.
    Unfortunately, for many decades, the federal government actively 
suppressed the teaching and speaking of Native languages. Today, only 
about 2,000 people can speak Cherokee fluently. If we allow our 
language to perish, all our accomplishments--what we have done in 
health care, education, and economic development--will be for naught as 
these things can only be fully achieved when we save our language. 
Cherokees generations from now will be unimpressed by all we have 
done--frankly, they will be bewildered as to why the great Cherokee 
Nation failed to do what was necessary to save our language.
How Cherokee Nation is Working to Protect, Preserve, and Revitalize the 
        Cherokee Language
    My administration has made language preservation a top priority. 
This is not something we can fail at, and it is not something we can 
wait to do. The average age of a fluent speaker is 70, and our language 
experts estimate that we lose as many as 15 fluent speakers each month 
and we are losing as many as 23 per month during the height of the 
COVID-19 pandemic.
    Within my first 100 days in office, I signed into law the Durbin 
Feeling Cherokee Language Preservation Act. This tribal law dedicated 
$16 million to our language efforts, the largest investment in language 
in our tribe's history. As part of this law, we are investing $5 
million in the construction and renovation of a new language center in 
Tahlequah. This center, named after the late Cherokee linguist Durbin 
Feeling, will house all our tribe's language programs under one roof 
for the first time in our history. I am pleased to announce that we 
broke ground on this center last week.
    This center will include our Cherokee Immersion School, a Pre-K 
through 8th grade education program aimed at training the next 
generation of Cherokee speakers. Our immersion school is in its 18th 
year and has added 64 fluent speakers to our rolls. Students follow the 
same state learning objectives as other students in public schools, but 
materials and content are converted into Cherokee and the curriculum is 
taught in Cherokee. At present, 98 students are enrolled in the 
program, but we had as many as 148 children enrolled before the 
pandemic.
    The new facility will also house the Cherokee Language Master 
Apprentice Program. This program offers an opportunity for adult 
language learners to earn a stipend while being fully immersed in the 
Cherokee language. After completing the program, students will have 
4,000 contact hours with the Cherokee language and will have spent more 
than 40 hours each week studying and speaking the language. We are 
partnering with area public schools, expanding our own staff and 
finding jobs for graduates in Cherokee language promotion and 
preservation.
    Adjacent to the language center, we are building efficiency homes 
for Cherokee speakers, often elders, so that they will have safe, 
affordable places to live and provide opportunities for speakers to 
interact daily with our staff and young people. Our goal is to create 
and foster a Cherokee language village--a language campus where fluent 
speakers and students work side by side and live side by side.
    Finally, the Durbin Feeling Cherokee Language Preservation Act also 
creates a cabinet level Secretary of Language, Culture and Community 
position in my administration, ensuring that our language and culture 
are always elevated to the highest levels of the Cherokee government.
    The pairing of the immersion school, master apprentice program, and 
homes for speakers reflects a multigenerational effort to preserve and 
promote the Cherokee language for future generations and builds on our 
prior revitalization efforts. Cherokee Nation couples younger first 
language speakers with our oldest distinguished speakers to identify, 
learn and preserve these core foundational understandings. This group 
reviews our oldest written documents to glean at risk words to 
document, learn, perpetuate and create the standard for the next 
generation of distinguished speakers.
Innovative ways we're working to protect/revitalize language through 
        technology
    The Cherokee Nation language revitalization programs are some of 
the most technologically advanced in Indian Country. The tribe has long 
standing partnerships with Microsoft, Apple, and Google that ensure the 
Cherokee language is compatible with all major digital platforms. Since 
2016, every computer, smart phone, and tablet supports use of the 
Cherokee syllabary. The tribe is a liaison member of the Unicode 
Consortium which is the international standards body that governs how 
writing systems are displayed by computing systems. This helps the 
tribe keep our syllabary up to date with the latest technology.
    These kinds of innovations opened doors for the Cherokee language 
to be used in any digital medium ranging from social media posts, text 
messaging, Google searches, interactive media, optical character 
recognition of syllabary, complex databases, and everything in between. 
The Cherokee Nation has created 3D computer animated cartoons in 
Cherokee language with Cherokee syllabary subtitles; an immersive 3D 
Cherokee language video game for Apple and Android devices; a virtual 
classroom platform for the Cherokee Immersion School which has the user 
interface completely in Cherokee syllabary; and a searchable Cherokee 
language word list that features audio recordings, just to name a few 
examples.
    The tribe's leveraging of technology has fostered an environment of 
innovation for language revitalization. New advances will be 
forthcoming, including text to speech technology in Cherokee language 
and voice activation. A large-scale dynamic, cross referencing online 
Cherokee language database is being developed which will house 
historical Cherokee language documents as well as new materials the 
tribe collects. These kinds of advances will serve as valuable tools in 
Cherokee Nation's language revitalization efforts.
    I am proud of the annual multimillion-dollar investments our Tribe 
makes to protect, preserve, and revitalize the Cherokee language, and I 
am happy to see Congress continue to acknowledge the need for 
additional federal investments in this area.
COVID-19's Impact on Cherokee Speakers
    As we were making these historic investments in the Cherokee 
language, the most devastating pandemic in our lifetimes hit Cherokee 
Nation, and our Cherokee speakers were among the most vulnerable. 
During the worst of the pandemic, we made concentrated efforts to 
support our speakers, providing food assistance, telehealth services, 
support to pay the costs of utilities and direct elder assistance 
payments.
    Despite these efforts, we lost more than 50 fluent speakers to 
COVID-19. Every life is irreplaceable, but when you lose a speaker, you 
are losing more than a person--you are losing a national treasure.
    Knowing that we needed to protect this segment of our population, I 
prioritized Cherokee speakers for our first doses of the COVID-19 
vaccine. I ensured that our Cherokee speakers were eligible for the 
vaccine in Phase 1 of our distribution plan, right alongside our 
healthcare workers.
    Their contributions to our tribe are immeasurable and their health 
and safety are one of our highest priorities. In 2019, we created a 
Cherokee Speaker Roll to begin identifying Cherokee speakers and 
showing our appreciation to them. Little did I know at the time, this 
roll would be invaluable to us when distributing the COVID-19 vaccine.
Cherokee Nation Strongly Supports the Durbin Feeling Native American 
        Languages Act
    I thank you for introducing S. 1402, the Durbin Feeling Native 
American Languages Act, which carries the name of a great Cherokee 
citizen--Durbin Feeling. I say without equivocation that my friend 
Durbin was the largest contributor to the Cherokee language since 
Sequoyah, the inventor of the Cherokee syllabary. Durbin dedicated his 
life to saving and preserving the Cherokee language for future 
generations. He spent decades breathing new life into the language. He 
was a tireless advocate for Native language and revitalization efforts.
    His generosity to the Cherokee people and his unwavering commitment 
to Cherokee language perpetuation will be the foundation upon which we 
teach future generations to honor and carry on our traditions. This 
bill speaks to everything he stood for and will build upon his many 
years of work.
    The Durbin Feeling Native Languages Act will ensure that the 
federal government is upholding its promises and the carrying out the 
policies designed to support native languages. The nationwide survey it 
produces will help guide investments in native language and ensure that 
all native languages remain vital for generations to come. It is an 
important bill, and I urge each member of the Committee to commit to 
getting this legislation to the President's desk this Congress.
    We are going to save the Cherokee language. We can, we must and we 
will. We are going to do it not just because of what Durbin Feeling 
did, but because of the vision that he had. I pledge to you today that 
we will carry out Durbin's vision but I need your help.
    I hope that my grandchildren and future generations grow up in a 
United States where native languages are valued, revered and given the 
full respect they deserve.
    I thank you for your support of Native languages and the 
opportunity to speak with you today.

    Senator Murkowski. Thank you, Mr. Hoskin. We appreciate 
that.
    We will next turn to Ms. Leslie Harper.

        STATEMENT OF LESLIE HARPER, PRESIDENT, NATIONAL 
   COALITION OF NATIVE AMERICAN LANGUAGE SCHOOLS AND PROGRAMS

    Ms. Harper. Aaniin, Committee Chair Schatz, Vice-Chair 
Murkowski, and members of the Senate Committee on Indian 
Affairs. Miigwech for this opportunity to testify today.
    My name is Leslie Harper, and I am an enrolled member of 
the Leech Lake Band of Ojibwe. I live on our reservation 
homeland which is in north central Minnesota.
    I am president of the National Coalition of Native American 
Language Schools and Programs. Our coalition is a volunteer 
group that advocates for the use of Native American languages 
as the primary language of instruction, which means we educate 
students through a Native American language for all subjects.
    Our coalition partners operate in a wide variety of 
contexts. There are BIA schools or programs, there are State 
public schools, charter schools, private non-profit schools. 
Coalition partners operate, depending on their capacity, a 
different range of programs. There is infant or childcare, 
there are preschool programs, elementary schools, secondary 
schools and some tertiary education. These schools and programs 
currently operate in 18 States and U.S. territories.
    So there are hundreds of Native American languages across 
the Country with multiple, unique linguistic and cultural 
principles that still exist. Despite all of these efforts to 
wipe us out, we are still here. And there are unique legal and 
political responsibilities to our Native American language-
speaking and learning communities.
    Committee members, about a month ago, on April 28th, you 
received testimony on COVID-19's effects on Native education. 
Our colleague Dr. Kauanoe Kamana described relevant issues 
affecting Native language medium schools on that day. We agree 
with and support all that Dr. Kamana provided on that day. That 
is very representative of the Native American language schools 
and programs that are operating across the Country. We have 
been disrupted from our language delivery and our learning 
spaces this year due to COVID-19. With great grief, yes, I 
report that many more of our Master speakers of our Native 
American languages have passed away this year. I don't have an 
official count, though every language revitalizer in my network 
can name speakers who have been lost this year.
    The COVID-19 crises of this year in lost connections and 
lost lives show us how critically we must address a wide range 
of language revitalization strategies.
    So when we write the story of Native American languages in 
the United States, we envision a healthy future. We dream up 
the time and the ability to examine multiple ways to revitalize 
our languages, to build capacity in new speakers, in new 
teachers, new learning modes, new curricula at all levels, 
birth through elderly, to determine how and where our languages 
intersect with English and other world languages, to ensure 
that protections for Native American language communities will 
ensure.
    Wellness measures that will include language vitality in 
all areas, economy, recreation, ceremonial communities, 
infrastructure, energy, jobs, environmental issues. Native 
American language understandings can contribute to healthy 
futures of all these areas of citizenship for the United States 
when we have the supports to grow and do so.
    Congress has funded multiple language resource centers at 
various universities that serve to improve the Nation's 
capacity for teaching and learning foreign languages. But 
Native American languages have been overlooked. So this sort of 
an invisibility of the unique legal and political rights of the 
original languages of the United States of America leaves a gap 
in access, and this is a place where we see opportunity for 
Congress to fulfil that responsibility to Native American 
language communities as intended in the Native American 
Languages Act of 1990 as well.
    So we wholeheartedly support the Native American Languages 
Resource Center Act. We also support the Durbin Feeling Native 
American Languages Act, because that can provide even more 
representation of our unique linguistic and cultural efforts 
and our sorely overlooked efforts.
    Miigwech, miigwech, thank you for this opportunity to 
testify today. I am happy to answer any questions and I will 
also be able to provide any written follow-up as needed.
    [The prepared statement of Ms. Harper follows:]

 Prepared Statement of Leslie Harper, President, National Coalition of 
             Native American Language Schools and Programs
    Aaniin Committee Chair Schatz, Vice-Chair Murkowski, and Members of 
Senate Committee on Indian Affairs.
    Miigwech for the opportunity to testify before you.
    My name is Leslie Harper, and I am an enrolled member of the Leech 
Lake Band of Ojibwe. I live on our reservation homeland which is in 
north central Minnesota. I have worked in grassroots Native American 
Language revitalization in community-based adult language learning 
projects, and co-founded and served as Director and taught at all 
elementary grade levels at our Niigaane Ojibwemowin Immersion school at 
Leech Lake. I currently provide consultation to Tribes and 
organizations to support community development and evaluations in 
Native language communities. I am President of the National Coalition 
of Native American Language Schools and Programs. Our Coalition is a 
volunteer group that advocates for the use of Native American Languages 
as the primary medium of instruction, which means that a Native 
American Language is spoken and treated as the language of 
communication for all operations and all subjects. The National 
Coalition brings together schools and programs that use Indigenous 
languages as the medium of instruction under the provisions of the U.S. 
federal Native American Languages Act of 1990 (NALA). Native language 
medium schools and programs (sometimes called immersion or dual 
language programs) educate students through a Native American language.
    National Coalition advocates come from a wide variety of 
jurisdictions, including Bureau of Indian Education (BIE) schools, 
state public schools, charter schools, and private non-profit schools. 
National Coalition advocates range from infant care, preschool 
programs, elementary schools, secondary schools to tertiary education. 
These schools and programs are currently enacted in eighteen states and 
U.S. territories.
    In this context in the United States, there are unique linguistic 
and cultural principles we work within to revitalize languages. Along 
with this, there are unique legal policy principles and unique legal 
responsibilities to our Native American Language-speaking and learning 
communities. Native American Language revitalization acts in many 
places in our communities. While many choose an education setting to 
implement, we find that Native American Languages are an important 
intervention across many areas of our community vitality.
    Committee members, you received testimony on April 28th, 2021 on 
Covid-19 effects on Native education. Our colleague Dr. Kauanoe Kamana 
described relevant issues affecting Native language medium schools, and 
I will refer you to her testimony and agree with all that Dr. Kamana 
provided in that setting.
    We have been disrupted from our language delivery and our learning 
spaces this year due to Covid-19. Some have pivoted and learned ways to 
do our best--some have successfully pivoted to online and distance 
learning, learned new technology to share space and time to speak our 
languages together. Native American language revitalizers are visionary 
and are innovators who often propose an alternative way to live our 
lives in our languages.
    With great grief, I report that many more of our Master speakers of 
our Native American languages have passed away this year. I do not have 
an official count. Though every language revitalizer in my network can 
anecdotally name speakers who have been lost this year. In a time of 
dwindling numbers of Elder First Speakers of our languages, Native 
American language revitalizers are working as always, against a clock, 
to prepare new speakers of our languages for multi-generational, 
healthy, living language speaking communities. The covid-19 crises of 
this year in lost connections and lost lives show us how critically we 
must regard a wide range of language revitalization strategies.
    This year has shown us how critically low our stock of speakers is, 
and how deeply we work to build new speakers. Native American language 
revitalizers have, from necessity, dedicated even more time to 
research, dream, build, test, reinvigorate, re-energize, and value our 
languages. We have been disrupted again in transmitting our languages 
even with the best-laid plans. While our programs and schools have not 
been able to provide consistent in-person language support, many 
language revitalization plans went into `life-support' mode to continue 
to share language with our students and families of students.
    Successful exemplary programs develop and create language speakers 
across all ages and generations as resources. Language programs create 
new child-age speakers of our languages to normalize language 
transmission in our lands, and we also focus on creating new adult 
speakers of our languages who can teach, design, and support language 
learning programs. There are revitalization programs to help 
grandparent-age generation passive speakers to re-awaken language that 
may have been forcibly removed from them at a young age. Adult language 
learners share in the work to create relevant language plans, to write 
proposals, to evaluate our actions, to survey community members, and to 
maintain our sustaining rituals that keep us going. It is imperative 
that we articulate for ourselves and seek critical, relevant, 
intentional support to pick up our work to keep moving forward.
    When we consider the story of Native American Languages in the 
United States, we envision a healthy future: all generations in all 
spaces speaking our languages together. We dream of creating that with 
fully supported research and development spaces, and the time and 
ability to examine multiple spaces needed to revitalize our languages. 
We build capacity in new speakers, new learning modes, new curricula at 
all levels birth through elderly, determining value measures in 
multiple spaces, territories, land contexts. We will determine value 
and intersection with other world languages. Policy protections for 
Native American Language communities will be ensured. Health and 
wellness measures will include language vitality in all areas of 
economy, recreation, ceremonial communities, infrastructure, energy, 
and environment. These are all spaces in which our languages deserve to 
live. Native American Language revitalization can affect the healthy 
futures of all these areas of citizenship in the United States--when we 
have the supports to grow and do so.
    A Native American language resource center that studies and 
broadens those realities will help to fulfil unique sovereign, self-
determining, locally understood ways to live our lives, honor our 
pasts, and brighten our futures.
    This is already offered to World languages in multiple centers--
Congress has funded sixteen Language Resource Centers at various 
universities to establish, strengthen, and operate centers that serve 
as resources for improving the nation's capacity for teaching and 
learning foreign languages through teacher training, research, 
materials development, and dissemination projects. However, Native 
American Languages have been overlooked. The invisibility of the unique 
legal and political rights of the original languages of the United 
States of America leaves a gap in the opportunity to fulfil Congress's 
support for all languages in our country.
    There are about 175 Native American Languages with some speakers 
today and an estimated 300 prior to the European invasion of North 
America. The Federal Foreign Service reports that it takes 1,100 hours 
of study to develop professional level proficiency in a language with 
major linguistic and cultural differences from English. Native American 
languages meet this criterion, and probably exceed it due to limited 
teaching resources. Federally funded language resource centers are 
providing the teachers and support for world language immersion and 
dual language programs. Those programs are spreading nationally in pre-
school through high school level programs for World languages and 
Native American languages are being left behind. We do not yet have an 
opportunity to do what the national Language Resource Centers are doing 
for foreign languages. Designing Native American Language Resource 
Centers as partnerships between skilled local practitioners, 
universities, and Tribal Colleges will bring resources together to 
support language revitalization in the intensive work that is sorely 
needed.
    The majority of Native American students in the United States 
attend public schools and non-Tribal universities. World language 
resource centers are supporting the study of world languages in the 
schools that these Native American students attend. We encourage 
equitable access to the opportunity to study Native American languages. 
Tribal Colleges and Bureau of Indian Education Schools should have a 
national resource center to help build capacity to learn and design 
exemplary practices in the teaching of their languages. In the same way 
that world languages often have the support of foreign countries to 
teach their languages, we would like to see capacity built for Native 
American language expert practitioners here to support teaching of 
Native American languages.
    Native American language communities also have limited access to 
data-gathering design, analysis, and results. Native language medium 
schools or program populations are often left out of large-scale 
studies on Native learners, due to small n-size in unique 
interventions. It is important that we recognize and honor the place 
that Native American languages hold in the vitality of our futures in 
this country. Timely, relevant data regarding the number of Native 
American language speakers, our unique community contexts, and capacity 
needs will provide support to justify increasing the resources 
available to Native American languages.
    ``Indapiizikaa gosha,'' some of our Elders would have said in the 
past when they were alive, which translates to, ``I'm doing the best I 
can with what I have''. This saying, from an Ojibwe perspective, can 
mean that I am acting to honor my personal role in the community to the 
best of my ability. Historically however, in many of our negotiation 
spaces, translations may have been imperfect or biased. At times, this 
phrase may have been misunderstood or mis-applied to justify a scarcity 
of resources or to avoid addressing barriers in a meaningful way. We 
must continue to work together with you and all the other members of 
Congress to ensure that NAL revitalization work is mutually understood 
and honored.
    Miigwech for this opportunity to testify today. I am happy to 
answer any questions and can provide written information as follow up 
as needed.

    The Chairman. [Presiding] Thank you very much.
    Next, we have Ms. Ka`iulani Laeha, Chief Executive Officer 
of `Aha Punana Leo. Welcome, aloha.

       STATEMENT OF KA`IULANI LAEHA, CEO, `AHA PUNANA LEO

    Ms. Laeha. Aloha kakou, aloha Committee Chair Schatz, Vice 
Chair Murkowski and members of the Committee. Mahalo nui, thank 
you for the opportunity to provide testimony on behalf of the 
`Aha Punana Leo today.
    I am Ka`iulani Laeha, the Chief Executive Officer of `Aha 
Punana Leo. We are a 501(c)(3) non-profit organization 
dedicated to the revitalization of the Hawaiian language. We 
are also the longest-standing indigenous language medium 
language nest program in the United States.
    Over the last four decades, the tireless efforts of 
advocates and educators has led to a resurgence of `Olelo 
Hawai`i, the Native Hawaiian language. It has also allowed us 
the opportunity to encounter and overcome challenges that other 
Native language communities will face along their journey of 
language revitalization. I believe that both S. 989 and S. 1402 
are crucial steps and vital to the progress of Native American 
language normalization.
    I am going to focus on S. 989. The establishment of a 
Native American Language Resource Center would significantly 
bolster our efforts. We have been working with Senator Schatz 
and seeking the establishment of a center like this for many 
years.
    The foreign language centers were established in 1990 under 
the U.S. Department of Education to provide equitable resources 
to foreign language communities. However, the Native American 
language communities, which are among the most endangered of 
world languages and from communities that are in need of the 
support, have yet to see this sort of benefit.
    The Native American Languages resource center is overdue 
for our Native American language communities, and is needed to 
bring about equitable outcomes today and for the future. In 
2020, we virtually celebrated the 30th anniversary of the 
passage of the Native American Languages Act, or NALA. While it 
was a celebration, NALA will only be possible if Congress 
mandates specific policies and efforts to ensure effective 
implementation and enforcement of NALA.
    Historically, the `Aha Punana Leo has worked with an 
informal network of similar grassroots organizations with 
limited resources across the Nation. With the Center, we can 
better support each other, other educational institutions, 
media groups, and small businesses focused on language 
revitalization by sharing about our experiences. The Center 
will be a place of accessible resources for all Native American 
language communities, no matter where they are located, no 
matter what stage they are at in their language revitalization 
efforts.
    This resource center is an opportunity to formally develop 
consortia with our American Indian, Alaska Native and Native 
Hawaiian serving institutions that are working and supporting 
school and community-based efforts. In a typical year, we host 
over 100 visitors here in Hawaii, seeking support and 
assistance and guidance on establishing language programs. A 
resource center could provide a coordinated support center to 
help develop programs based on best practices that will also 
align with the needs of each Native American language 
community.
    There is also a shortage of researchers that forced small 
grassroots organizations to rely upon their own teachers to 
develop learning resources, create appropriate learning 
methodology, and advocate for themselves. The center would 
allow for shared research and collaboration to support the 
development of the teacher workforce and learning methodology, 
and could also help to ensure that Federal plans, such as the 
American Families Plan that currently suggests universal 
preschools for all three- and four-year-olds protects and 
aligns with our current objectives and does not cause 
unintended consequences for our Native languages.
    We know that Native American language programs cannot 
succeed in a one size fits all type of system. Our Native 
American language organizations need and deserve the full 
support of a language resource center to be included in the 
American Families Plan to ensure that our programs have support 
that is aligned with the real needs of the communities that we 
serve.
    Mahalo nui for this opportunity to provide testimony today. 
I am happy to answer any additional questions you may have. 
Mahalo.
    [The prepared statement of Ms. Laeha follows:]

      Prepared Statement of Ka`iulani Laeha, CEO, `Aha Punana Leo
    Aloha Committee Chair Schatz, Vice Chair Murkowski and members of 
the Committee. Mahalo nui, thank you for the opportunity to provide 
testimony on behalf of the `Aha Punana Leo on S. 989, a bill to 
establish a Native American Language Resource Center and S. 1402, 
Durbin Feeling, a bill to amend the Native American Languages Act to 
ensure the survival and continuing vitality of Native American 
Languages.
    I am Ka`iulani Laeha, the Chief Executive Officer of the `Aha 
Punana Leo, a 501(c)(3) tax exempt organization dedicated to the 
revitalization of the Hawaiian language and the longest standing 
indigenous language medium language nest program in the United States. 
E ola ka `olelo Hawai`i, the Hawaiian language shall live is the vision 
that drives our work.
    Over the last 4 decades, the tireless efforts of advocates and 
educators has led to a resurgence of `Olelo Hawai`i, the Native 
Hawaiian language. It has also allowed us the opportunity to encounter 
and overcome challenges that other native language communities will 
face along the long journey of language revitalization. I believe that 
both S.989 and S.1402 are crucial steps and vital to the progress of 
Native American language normalization.
    S.1402 requires more effective coordination between federal 
entities that will minimize the current interdepartmental disconnect 
and lack of understanding of what is needed in the communities doing 
the work. This bill requires increased reporting to understand areas of 
importance to support our efforts and will better evidence and 
communicate the progress or shortcomings of the programs in place.
    S. 989 the establishment of a Native American Language Resource 
Center would significantly bolster our efforts by encouraging Native 
American languages as medium of instruction, stimulating broader 
adoption of Native American languages across our national education 
system, and improving educator support for Native American language 
instruction. We have been working with Senator Schatz and seeking the 
establishment of a center like this for many years.
    Foreign language centers were established in 1990 under the US 
Department of Education to provide equitable resources to foreign 
language communities; Native American language communities, among the 
most endangered of world languages and from communities that are in 
need of the support, have yet to see this sort of benefit. In regard to 
Native American languages, there is little understanding of the range 
of needs in teaching and learning. While being able to fulfill high 
school or college level general education language requirements with a 
Native American language is a major step in the right direction, 
further opportunities to support the learning of Native American 
languages are needed for revitalization efforts to continue and reach 
their full potential. The Native American Language Resource Center is 
overdue for our Native American languages and is needed to bring about 
equitable outcomes today and in the future.
    On October 30, 2020, together with the National Coalition of Native 
American Language Schools and Program, the `Aha Punana Leo held a 30th 
anniversary virtual celebration on the passage of the Native American 
Languages Act (NALA). It was a celebration indeed, however, the goals 
of NALA will only be possible if the Congress mandates specific 
policies and efforts to ensure effective implementation and enforcement 
of NALA. S. 989, the Native Language Resource Center Act will provide a 
national center, accessible to all, and valuable to Native American 
language programs and schools at all levels. The importance of the 
establishment of a Native American Language Resource center could not 
come at a more crucial time, first, with Native American schools and 
programs being so heavily impacted by Covid-19, and as our Native 
communities have lost many family members, elders, traditional leaders 
and some of the only remaining speakers of their Native American 
language. And second, as President Biden announces the American 
Families Plan to include support for universal preschool, the Congress 
must understand the distinct needs of Native communities with early 
childhood programs taught in the medium of a Native language. The 
federal agencies that have jurisdiction over implementation of programs 
like preschools must eliminate barriers Native American language 
communities face and support administrative rules that are aligned to 
NALA. I note in particular that Hawai`i state law in alignment with 
NALA Section 104 (2) is what has allowed our Hawaiian language nest 
preschools to develop to our current level of national leadership using 
staff whose qualifications other than those involving health and safety 
and proficiency in our Indigenous language are left to us based on our 
own understandings of best practice from our own cultural 
understandings. Early Childhood Development through a Native American 
language requires the highest fluency for teachers to transmit the 
language to the children. Quality programming in a Native American 
language ensures a safe and healthy robust Native American language 
environment based in the traditions of the languages and peoples 
themselves. These are the standards for such quality programming and it 
is the responsibility of those providing the language nest environment 
to ensure the success of its program. A Native American Language 
Resource Center is needed to support school and community based Native 
American language revitalization efforts across the nation.
    Historically, the `Aha Punana Leo has worked with an informal 
network of similar grassroots organizations with limited resources 
across the nation. Because of our long history we have come upon many 
challenges that we have overcome or are working through to ensure a 
living Hawaiian language and with a Center we can better support other 
educational institutions, media groups, and small businesses focused on 
language revitalization by addressing and sharing about our 
experiences. The Center would be a place of accessible resources for 
all Native American language communities no matter where they are 
located and no matter what stage they are at in their language 
revitalization efforts.
    The Native American Language Resource center is an opportunity to 
formally develop consortia with our American Indian, Alaska Native and 
Native Hawaiian serving institutions that are working and supporting 
school and community-based revitalization efforts. There are a range of 
needs for Native American language communities that have not been met. 
As an example, in a typical year we host over a hundred visitors 
seeking support, assistance, and guidance on establishing flourishing 
Native American language programs. A resource center could provide a 
coordinated support center to help develop programs based on best 
practices that will align with the needs of each Native American 
language community. Another example is the shortage of researchers that 
force small grassroots organizations to rely upon their own teachers to 
develop learning resources, create appropriate methodology and advocate 
for themselves. The Native American Language Resource Center would 
allow for shared research and collaboration to support the development 
of the teacher workforce and learning methodology and also help to 
ensure that federal plans, such as the American Families Plan that 
currently suggests universal preschool for all 3 and 4-year-olds, 
protects and aligns with our current objectives and does not cause 
unintended consequences for our Native languages. We know that Native 
American language programs cannot succeed in a one-size-fits-all type 
of system.
    The key findings in America's Languages Investing in Language 
Education for the 21st Century report by the American Academy of Arts 
and Sciences' Commission on Language Learning are:

  <bullet> ``the ability to understand, speak, read, and write in world 
        languages in addition to English is critical to success in 
        business, research, and international relations in the 21st 
        century.''

  <bullet> ``the study of a second language has been linked to improved 
        learning outcomes in other subjects, enhanced cognitive 
        ability, and the development of empathy and effective 
        interpretive skills.''

  <bullet> ``the use of a second language has been linked to a delay in 
        certain manifestations of aging.''

    The `Aha Punana Leo has witnessed these outcomes in our graduates 
that have completed the Hawaiian medium pathway of education that is 
focused first on exclusive use of Hawaiian language in the early years 
and subsequent transferred skills to English graduating high school 
fully bilingual in Hawaiian and English. These findings are very 
positive in support of language learning however for our American 
Indian, Alaska Native and Native Hawaiian languages the additional and 
most critical benefits are in the relationships of language to 
spirituality, genealogy, culture and identity. These are described in 
Kumu Honua Mauli Ola or a Native Hawaiian educational philosophy 
similar to other Native American language communities' ways of knowing 
and well-being. The Commission on Language Learning recognized Native 
American languages as distinct in political status and history and 
recommended targeted and increased support where our languages are 
being used as primary languages of education and for the development of 
curricula and education materials. The Native American Resource Center 
directly addresses the recommendation of the Commission and could 
further support our Native language learners in developing high fluency 
in English or other languages.
    As we examine our COVID-19 Response a year later, the pandemic has 
brought to light the inequities that exist in Native American language 
support; the lack of learning resources available to families digitally 
or for home use, access to in person care programs for our children, 
and the need to increase staff with high levels of fluency that are 
needed to meet the standard of care to maintain healthy and safe 
settings in our childcare centers. The `Aha Punana Leo operates 
language nests on five major islands, Hawai`i, Maui, Moloka`i, O`ahu 
and Kaua`i. Our graduates (and families) matriculate to Hawai`i's 
public Hawaiian language medium Charter and Department of Education 
schools. The `Aha Punana Leo together with our consortium partners, Ke 
Kula `o Nawahiokalani`opu`u (Nawahi) and Ka Haka `Ula o Ke`elikolani, 
Hawaiian language college, P-20 model demonstrates successful private-
public partnership and best practices in language revitalization.
    We have witnessed many positive outcomes including our graduates 
raising their own children in Hawaiian language, the key findings 
described in the 2017 Commission on Language Learning report and the 
exciting recent United Nations declaration of the International Decade 
of Indigenous Languages 2022-2032. Our Native American language 
organizations need and deserve the full support of a Language Resource 
Center included in the American Families Plan to ensure that our 
programs have support that is aligned with the real needs of the 
communities we serve.
    Mahalo nui for this opportunity to provide testimony. I am happy to 
answer any additional questions you may have. Mahalo nui.

    The Chairman. Mahalo. Thank you very much.
    Next, we have Ms. Bernadette Alvanna-Stimpfle, Director of 
the Kawerak Eskimo Heritage, Chair, Alaska Native Language 
Preservation and Advisory Council, in Nome, Alaska.

STATEMENT OF BERNADETTE ``YAAYUK'' ALVANNA-STIMPFLE, DIRECTOR, 
    KAWERAK ESKIMO HERITAGE; CHAIR, ALASKA NATIVE LANGUAGE 
                   PRESERVATION AND ADVISORY 
                            COUNCIL

    Ms. Alvanna-Stimpfle. [Phrase in Native tongue] honorable 
Senators, and mahalo, Chair Brian Schatz, and Quyanaq, 
Iliganamiik Vice Chair Lisa Murkowski.
    My name is Yaayuk [phrase in Native tongue] Bernadette 
Alvanna-Stimpfle [phrase in Native tongue] in English, and I 
represent myself here today, speaking in favor of the Native 
American Language Resource Center Act and the Durbin Feeling 
Native American Languages Act of 2021.
    I am speaking to you in the second language that I learned 
as a five-year old. Inupiaq is my first language.
    I am hopeful that increased budget allocations can be made 
towards Alaska Native languages, and more attention can be 
given to small tribes who do not have the capacity to write and 
manage complex Federal grants. I teach the Inupiaq language and 
am mentor to the first-ever Inupiaq immersion class in Nome, at 
Nome Port schools. My daughter happens to be the first Inupiaq 
immersion teacher.
    I want to share with you that we have struggled with 
maintaining our classes throughout the COVID-19 pandemic. 
Nearly every Alaska Native language has fewer speakers now than 
when the pandemic led us to a nationwide shutdown over a year 
ago. The need to protect our elders, communities, and selves 
meant that we had to try to switch to online classes and 
meetings. This was difficult because of the limited bandwidth 
in rural Alaska, and high cost of internet access in our 
communities. In addition, many of our teachers were not 
familiar with online teaching and how that changes our 
abilities to communicate, teach, learn, and grow together.
    Alaska is home to 23 Alaska Native languages. I am the 
chair of the Alaska Native Language Preservation and Advisory 
Council, and we have received testimony about the challenges 
Alaska Native languages face today. Of those 23 languages, 2 
are no longer actively spoken. Seventeen of them have fewer 
than 100 remaining speakers. The State of Alaska declared a 
linguistic emergency in 2018, but it has done nothing to 
improve matters at the State level since that time.
    In fact, budget cuts at the University of Alaska and the 
neglect to listen to the recommendations of the Alaska Native 
Language Preservation and Advisory Council have left us worse 
off than when the emergency was declared.
    I will share with you what we need to make changes. We need 
some substantial shifts in Alaska. Overall, we need to focus on 
indigenous language teacher preparation, materials development, 
language normalization, and reforming education to be inclusive 
of Alaska Native languages. The Alaska Native Studies Council 
is working with colleagues in Hawaii and New Zealand to develop 
a proposal for the College of Alaska Native Languages. This 
college would be housed within the University of Alaska. That 
would allow us to develop Alaska Native language teacher 
certification and the licensure processes to increase activity 
in language documentation and access. This idea needs Federal 
support and the University of Alaska and State of Alaska need 
to assist and collaborate with the development of the college.
    In addition, if the University of Alaska received funding 
dedicated to open access, we can develop zero credit online 
options for existing courses, so Alaskan people do not have to 
pay tuition to learn their own endangered languages. This would 
provide healing opportunities because it only adds to the 
trauma to charge someone to learn their own language which was 
denied to them and their ancestors due to State and Federal 
governmental actions and policies.
    The Alaska Native Language Center needs to be transformed 
into an Alaska Native Language Media Network that produces 
multimedia content and creates access to Alaska Native language 
materials. We have Alaska Native artists, writers, animators, 
filmmakers, and journalists, which can help make sure that 
Alaska Native languages are heard, seen, and felt all across 
Alaska. This would also need funding and advocacy to bring the 
idea into being.
    We need your help. Alaska was already in a crisis 30 years 
ago with Alaska Native languages, and now the majority of our 
languages are on the verge of being lost. It is so hard to 
reverse language shift, and our efforts are often pulled into 
political battles that have nothing to do with the love we have 
for our languages, and the ways we need them to heal us.
    I don't know what the future holds, but I hope that it is 
brighter than today, and I am hopeful that you will be the ones 
who will take the bold steps that are needed to bring us to a 
destiny other than loss and sorrow.
    Quyanaq, thank you, honorable Senators, for your time. I am 
available for questions should you have any.
    [The prepared statement of Ms. Alvanna-Stimpfle follows:]

Prepared Statement of Bernadette ``Yaayuk'' Alvanna-Stimpfle, Director, 
Kawerak Eskimo Heritage; Chair, Alaska Native Language Preservation and 
                            Advisory Council
    Thank you honorable Senators, and Mahalo Chair Brian Schatz, and 
Quyanaq, Iliganamiik vice Chair Lisa Murkowski. My name is Yaayuk 
Bernadette Alvanna Stimpfle, and I represent myself here today, 
speaking in favor of the Native American Language Resource Center Act 
and the Durbin Feeling Native American Languages Act of 2021. I am 
hopeful that increased budget allocations can be made towards Alaska 
Native languages, and more attention can be given to small Tribes who 
do not have the capacity to write and manage complex federal grants.
    I teach the Inupiaq language and want to share with you that we 
have struggled with maintaining our classes throughout the COVID-19 
pandemic. Nearly every Alaska Native language has fewer speakers now 
than when the pandemic led us to a nationwide shutdown over a year ago. 
The need to protect our elders, communities, and selves meant we had to 
try to switch to online classes and meetings. This was difficult 
because of the limited bandwidth in rural Alaska, and high cost of 
Internet access in our communities. In addition, many of our teachers 
were not familiar with online teaching and how that changes our 
abilities to communicate, teach, learn, and grow together.
    Alaska is home to 23 Alaska Native languages. I am the chair of the 
Alaska Native Language Preservation and Advisory Council, and we have 
received testimony about the challenges Alaska Native languages face 
today. Of those 23 languages, two are no longer actively spoken today, 
17 of them have fewer than 100 remaining speakers. The State of Alaska 
declared a linguistic emergency in 2018, but has done nothing to 
improve matters at the state level since that time. In fact, budget 
cuts at the University of Alaska and the neglectedness to listen to the 
recommendations of the Alaska Native Language Preservation and Advisory 
Council have left us worse off than when the emergency was declared.
    If we are going to create changes, we need a number of substantial 
shifts in Alaska. Overall, we need to focus on Indigenous language 
teacher preparation, materials development, language normalization, and 
reforming education to be inclusive of Alaska Native languages.
    The Alaska Native Studies Council has been working with colleagues 
in Hawai'i and New Zealand to develop a proposal for the College of 
Alaska Native Languages. This college would be housed within the 
University of Alaska that would allow us to develop Alaska Native 
language teacher certification, and licensure processes to increase 
activity in language documentation and access. This idea needs federal 
support and the University of Alaska and State of Alaska need to assist 
and collaborate with the development of the college.
    In addition, if the University of Alaska received funding dedicated 
to open access, we could develop zero credit online options for 
existing courses so Alaskan people do not have to pay tuition to learn 
their own endangered languages. This would open doors to provide 
healing opportunities. It only adds to the trauma to charge someone to 
learn their own language, which was denied to them and their ancestors 
due to state and federal governmental actions and policies.
    The Alaska Native Language Center needs to be bolstered and be 
transformed into an Alaska Native Language Media Network that produces 
multimedia content and creates access to Alaska native language 
materials. We have Alaska Native artists, writers, animators, 
filmmakers, and journalists, and we can help make sure that Alaska 
Native languages are heard, seen, and felt all across Alaska. This 
would also need funding and advocacy to bring the idea into being.
    Alaska Native Place names need to be restored, because thousands of 
colonial names have come over our land and threaten to eliminate 
Indigenous place names and alienate people from their ancestral lands. 
Just imagine if Alaska embraced its Indigenous history by restoring the 
names on the land and reversed a damaging process of putting the names 
of colonizers and explorers on lands that already had names there had 
thousands of years of history behind them.
    We need your help. Alaska was already in a crisis thirty years ago 
with Alaska Native languages, and now the majority of our languages are 
on the verge of being lost. It is so hard to reverse language shift, 
and our efforts are often pulled into political battles that have 
nothing to do with the love we have for our languages, and the ways we 
need them and the ways that they heal us. I don't know what the future 
holds, but I hope that it is brighter than today, and I am hopeful that 
you will be the ones who will take the bold steps that are needed to 
bring us to a destiny other than loss and sorrow. Thank you, honorable 
Senators, for your time. I am available for questions should you have 
any.

    The Chairman. Thank you very much for your testimony.
    My first question is for Ms. Laeha. When we spoke earlier 
this month about Native Hawaiian education, you described the 
uniqueness of Native Hawaiian immersion early childhood 
programs. I am wondering if you can share some of the 
challenges that these programs can face with the one size fits 
all Federal early childhood mold.
    Ms. Laeha. Absolutely, thank you for that question.
    One example that comes to mind is that while we have NALA 
that protects and promotes the use of Native American 
languages, we need to pay really close attention to these new 
plans that could create barriers for language nests, such as 
what the definition of quality would mean. Within mainstream 
early childcare settings the definition of quality is typically 
tied to an accreditation given by a mainstream accreditor with 
focus on English language medium schools, rather than on 
accreditors that are aligned with quality indigenous programs, 
teaching through indigenous languages with focus on 
revitalizing those languages.
    The Chairman. Thank you. Can you give us some specific, it 
doesn't have to be right now, actually, it can be for the 
record, but if you have any specific recommendations as we 
think about Federal efforts to support universal early 
childhood education, so that they can also support Native 
language medium programs. Do you have any specific suggestions 
about how to configure a program like that?
    Ms. Laeha. I do, and I think that assuring that NALA 
Sections 104(2) and (3) are followed is very important, making 
sure that these Native American language medium programs have a 
distinct category of early childhood support. Also making sure 
that the qualifications of staff solely focus on the 
proficiency in Native American language and the culture of 
instruction with best practices in language revitalization-
based measurements of quality.
    I think there is also significant need for targeted and 
regular funding for the existing and future early childhood 
education Native American English programs through government 
entities such as OHA, the Office of Hawaiian Affairs, tribal 
governments, and Alaska Native entities that should further be 
enhanced by competitive grants through the Administration of 
Native Americans or other entities that might strengthen these 
programs.
    The Chairman. Thank you very much.
    Ms. Sauve, how many qualified Native language grant 
applications is ANA unable to service just because of a lack of 
funding?
    Ms. Sauve. Thank you, Chairman Schatz, for that question.
    ANA receives between 60 and 75 applications each year for 
both of our competitions. This year, we were only able to fund 
11 of them out of the 75 that applied. That trend is pretty 
similar in previous years as well.
    So there is definitely a great unmet need out there. That 
is not even counting those that don't apply because they are 
worried they won't score high enough in the competition.
    The Chairman. That is one measure, is the number of 
applicants. Do you have a sense for what that dollar amount 
would be in terms of an unmet need?
    Ms. Sauve. Yes. The dollar amount, I can get that to you.
    The Chairman. Yes, why don't you take that for the record. 
Obviously, the number of applicants is one question, the number 
of dollars it would cost to meet all the unmet need is another 
one. Thank you very much.
    Ms. Laeha, I want to talk to you about best practices. This 
is something that I learned a lot about with my great staff 
over the last seven or eight years, that a lot of what happened 
in Nawahi, with `Aha Punana Leo, and with a lot of the programs 
in the state of Hawaii, they were really navigating new waters 
and trying to figure out how to maintain quality education in 
the context of immersion, and then try to figure out how to 
comply with Federal testing requirements and all the rest of 
it.
    I think we figured this out. Obviously, it is going to be a 
continuing learning process.
    But I am just wondering if you can speak a little bit to 
the value of sharing best practices. Because it is hard enough 
to get this stuff right. But if every single Native 
organization, Native community, has to figure this out anew, 
not having learned any lessons from any other Native community 
that may be two or three or five years ahead, that seems like a 
waste of resources, especially for the kinds of difficulties 
that the small tribes in Alaska are experiencing, where you are 
talking about 20 people still speaking the language.
    They don't have the resources to develop infrastructure 
around Native language immersion, let alone how to integrate 
that into a Federal testing regime and making sure these kids 
are career and college ready in whatever way that makes sense.
    I am wondering if you can speak to the value of identifying 
best practices and then sharing them across a broader platform.
    Ms. Laeha. Absolutely. We recognize and we know that each 
community is unique, and they are going to encounter equally 
unique challenges. I think the fact that we have hosted 
hundreds of visitors over the year and have had hundreds of 
inquiries to see and learn about the program and what we have 
experienced really speaks for itself.
    It is really evidence that best practices shared amongst 
communities is what is needed. It is much more than an 
assumption at this point that collaborating and sharing those 
best practices between the communities is really vital to 
success.
    The Chairman. Thank you very much.
    Vice Chair Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    To your point that you just made about tribes that have 
limited resources, I recall it wasn't too many years back, but 
there was a fire at the language immersion school in Bethel for 
the early learners. As tragic as the fire was to the building 
and the fact that the kids no longer had a space, but it was 
the loss of the reading cards, the materials that had been made 
by the teachers. You are not ordering them from some book 
company. They had been made and we lost all of that.
    So when you think about, I think about resources, some of 
it is really pretty basic.
    Ms. Alvanna-Stimpfle, it is good to have you before the 
Committee. I thank you for your extraordinary leadership when 
it comes to language preservation. The Alaska Native Language 
Preservation and Advisory Council provides an index of the 
various local language programming that is offered by the 
schools, non-profits, other heritage centers. These are 
detailed maps that are able to highlight the various geographic 
areas within the State that are covered by the local tribal and 
State outreaches. It is a pretty useful tool, again, given 
limited resources that are available.
    With the Durbin Feeling Native American Language Act, it 
would require survey of Federal programs that support Native 
language, theoretically to help inform Federal decision makers 
about what the resources are, if the Federal agencies are 
living up to their responsibility to preserve and support 
preservation and revitalization of Native languages.
    How do you think this helps us? Would having access to 
information about these Federal Native language resources help 
to inform the collection and programming for the work that is 
done within the Preservation and Advisory Council? Is this 
helpful from a national perspective, or do we need it to be 
more organically driven?
    Ms. Alvanna-Stimpfle. Well, I am very proud of our young 
people that have worked tirelessly in trying to revive our 
language with elders as our mentors. The one thing for the 
Inupiaq region, that would include North Slope, the 
[indiscernible] region and Kotzebue, and then Bering Straits, 
where I am from, they put it upon themselves to do a survey, 
language survey, who speaks fluently, who are the beginners and 
the ones in between.
    So between our young people and the elders that are out 
there, I think working cooperatively that way would really 
bring a good picture to the status of our languages. For 
example, the villages east of Nome, maybe there are one or 
fluent speakers left in their small community. It is beginning 
to look that way of the villages north of Nome, Shismaref, 
Diomede, Wales. King Island is what I speak.
    So working with our young people, and making sure we are 
coming at it with teachers that are able to speak the language 
with mentors is very important. So having the statistics, 
number of speakers is very helpful. Thank you, Senator 
Murkowski.
    Senator Murkowski. Let me ask one more quick question of 
you. We are also looking at the effort to foster the 
relationship between Native language programs and institutes of 
higher education, so you have Ilisagvik up north, and wanting 
to encourage that. But is this something where, in your view, 
we need to be focusing on the early learners, the kids, and 
getting them part of this, so that the language is continued? 
Or is it something that at this point in time we need to be 
focusing on the connection with those in higher education?
    I think there is a sense of urgency in so many of our 
communities, because as you say, we are losing our Native 
speakers. So maybe we need to focus on everybody. It just can't 
be the children. It can't be those in college. It needs to be 
that whole gamut.
    Ms. Alvanna-Stimpfle. Thank you for that question. I 
believe it is really important to work with our young people 
for them to become speakers of our language. Also, it is very 
important for them to learn how to speak to our children. 
Because our language, Inupiaq, is very long. It can be one 
sentence in English.
    So how we speak to our children is very important. They 
need to grow into becoming fluent Inupiaq speakers as they get 
older. So starting with our young people, late teens, early 
20s, to get them comfortable in speaking. Because we still have 
generations, older generations, that have been hurt from their 
past and traumatized for not speaking their language, language 
that they don't really want to share or they get angry if young 
people aren't saying things correctly.
    So when to put those young people in a safe place, 
especially to learn how to talk to our children, and trying to 
kill all the birds with one stone, so everyone is included. And 
also making sure that we are protecting our elders. My 
daughter, who is the first ever Inupiaq immersion teacher, she 
prepared for this when she was in high school, by the way. She 
felt like she couldn't invite any elders into her classroom 
during COVID, the 70- and 80-year-olds.
    But my niece and I, who is only a few years younger than 
me, she told me yesterday, you are in your early 60s, so with 
the protection that we both had, with all the students, we were 
able to go in every day. My niece went in every day and I went 
in two times a week to mentor.
    When I listened to her teach and say maybe a vowel wrong 
within a long word that I [indiscernible] repeat, repeat it 
correctly. So those are the situations we need to create. Thank 
you.
    Senator Murkowski. Thank you. You have done a great job 
with your daughters. I know that personally. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Smith.
    Senator Smith. Thank you, Mr. Chairman.
    I really appreciate this conversation. It is very 
interesting. I would like to follow up with some of the same 
kinds of questions as Senator Murkowski was asking, and direct 
them toward Leslie Harper. It is wonderful to be with you, Ms. 
Harper.
    I am really interested in talking about the role of Native 
elders in language revitalization and preservation. We know 
also of course that the pandemic has hit Native elders hard. We 
don't have great data on what has happened with the pandemic's 
toll on Native speakers. But I know that in Minnesota's Native 
language programs, including Niigaane, that you have founded, 
you rely a lot on elders. As I understand it, you pair up 
Native speaking elders with people who speak Ojibwe as a second 
language in your programs for kindergarten through sixth grade.
    Ms. Harper, could you just talk a little bit about how you 
have seen the pandemic affect Native elder language speakers, 
and your work to preserve and revitalize the Ojibwe language?
    Ms. Harper. Miigwech, thank you for that question, Senator. 
I always love hearing your Ojibwe language, too.
    [Laughter.]
    Ms. Harper. So in our Minnesota context, we are losing our 
master speakers, our elderly population of speakers. They are 
aging out. In the decade that I spent with our language 
immersion school, we did keep a really grim census, a count of 
our elderly language speakers who were master speaker resources 
upon whom we could rely.
    We found at that time we had a couple hundred folks who we 
could go out into our communities and choose from. By 2012, by 
the year 2012, it had greatly reduced. By the year 2014, that 
number had greatly reduced. Our people have shorter life 
expectancies. They have different health issues.
    So we were already having a shrinking pool of elder first 
speakers to work with. And that was our dream. They are quality 
control, these that are our master speakers. Folks our age, we 
had to work as adults to learn the language and to be existing 
in these environments and to create intentional language-rich 
environments. So we have the gift of these master speakers to 
pair up and to do this with.
    Fast forward from 2014 even until now, our master speakers, 
the population is going down, and really, it has been a 
difficult, difficult year. The pandemic really has hit us hard.
    So that is speaking from my own, my very own community. We 
have Dakota communities in Minnesota who already had critically 
low numbers, even really a couple years back could say, we can 
count on one hand. Now our Dakota relatives cannot even count a 
handful of our speakers.
    So this goes across the Country. We are now relying on, are 
we training and supporting our adult language learners to honor 
the legacy that these elder speakers have left for us? We have 
recordings and we have documentation and all of these models. 
We may not have our living speakers with us in so many of these 
contexts.
    So now it is on the coming generation to say, indeed, are 
we honoring, are we learning to a level that is far enough and 
deep enough to support these efforts, as well as bringing up 
our kids in our languages.
    Senator Smith. So what I am hearing you say is that it is a 
combination of connecting with and doing these language 
immersion programs, but also, you have to simultaneously reach 
out to older, to adults. Maybe you could just talk a little bit 
about this question. I have heard from others, you and I 
haven't spoken about this, I have heard about this from other 
tribes in Minnesota that are doing language and culture 
centers. The question of how you get adults to connect with 
learning the language, which of course is difficult, if they 
are not first speakers. Also, that learning is associated with 
all sorts of trauma related to Federal Government programs 
around separation and boarding schools. So you have that on top 
of it.
    I know I am out of time, but could you just take a minute 
to say what you are learning about how to make that connection 
and bridge that trauma where you can?
    Ms. Harper. We reach out to the other Native language 
programs that we meet that are active in our State, but even 
across the Country. When we see folks doing something that is 
working to produce new speakers and to work through those 
losses and those pains, we say, what are the principles 
underlying that? Can you tell us more about that? Can we try to 
recreate that here?
    These are all really intentional practices that need to be 
intentionally considered and designed and given strong capacity 
to operate. We don't want to throw in one overworked language 
worker, language revitalizer, into doing a job that really 
takes many, many members, many good relatives in the community 
to do, to build a healthy communicating language speaking 
community. Does that help?
    Senator Smith. Yes, thank you very much. We are grateful 
for you. Miigwech for joining our Committee. I will see you 
soon.
    The Chairman. Senator Hoeven.

                STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. Thank you, Mr. Chairman.
    What I would like to ask each one of our witnesses today 
is, how the two bills that we are considering, were considered 
in our business meeting and we are working on, how can those 
two bills help preserve Native languages, number one. And the 
second, what do you think would be the number one thing this 
Committee could do to help?
    I would ask each of the witnesses, if they would, to 
address that. We can start with Commissioner Sauve.
    Ms. Sauve. Thank you, Senator Hoeven.
    I would want to defer to my fellow witnesses on this, 
because some of it is outside the purview of HHS. I know that 
the language resource center will be housed at Department of 
Education, so I look forward to hearing their responses to this 
question.
    Senator Hoeven. And do you have any recommendations for 
this Committee, something that you would like to see us do that 
you feel would be particularly helpful?
    Ms. Sauve. What I would do is hearken back to a project we 
did in ANA several years ago through HHS Ignite. We spoke with 
our grantees and while we shared, what they shared with us is 
that that peer-to-peer learning is particularly important. So 
they want more of that. We do try to do that through the 
National Native American Languages Summit that we have been 
doing as part of the memorandum of agreement we have with the 
Department of Interior and the Department of Education. We have 
had seven annual Native language summits.
    But much more than the bills that you have proposed that 
take what we have been able to do, just sort of on a shoestring 
budget, much further. Thank you for the opportunity to comment.
    Senator Hoeven. Who would like to go next?
    Mr. Hoskin. Senator, just briefly, the resource center will 
be vital. I certainly can see the wisdom in that.
    The Durbin Feeling Act to do a survey of resources is very 
important. At Cherokee Nation, we have a talented staff of men 
and women who scour the Country, particularly D.C., for those 
opportunities. But I think it will help all of Indian Country.
    It is easy to say that more dollars will help save the 
language. That is a true statement, as simple as that is. The 
truth of the matter is, at Cherokee Nation, what we are trying 
to do is increase the supply of those speakers through our 
efforts to create fluent speakers, so we can combat this loss 
of our fluent speakers.
    One thing we have to do is we have to create the demand for 
speakers. I think it varies across tribal lands what the 
opportunities are. But anything that Congress can do and the 
Federal agencies can do, the relevant agencies can do, to help 
support the creation of a way for Native speakers to make a 
living speaking their language, and this is in the space of 
teaching the language, it is in the space of creative arts, 
which is particularly exciting to me. We have a Cherokee 
language cartoon that we have developed and want to continue to 
develop, and other tribes have explored different strategies, 
but also strategies surrounding cartoons to reach out to young 
kids.
    I think we have to remember that part of losing a language 
is that it was robbed of its relevancy. Anything we can do to 
renew and revitalize what it means to use the language every 
day we should do. I think that could take some resources from 
the government of the United States to help us to do that.
    So I would just make that future pitch for that particular 
use of resources.
    Senator Hoeven. Ms. Harper?
    Ms. Harper. Miigwech, thank you for asking that question.
    I turned in a much longer testimony than five minutes of 
oral statements gave me. I would like to talk about, at the 
amazing levels, the heroic levels of work and the multiple 
pieces of work that people do to revitalize languages in any of 
our communities, then our Native language medium programs and 
schools that are operating. Those people are doing tons of 
work. They are. They are developing curriculum; they are 
looking at ways to teach all of these different age levels. 
They are creating materials. They are developing 
infrastructure. They are developing new philosophies for our 
tribal and for local governments to base different policies on, 
branching out from educational spaces.
    So that means we have a lot of opportunities in there. I 
really appreciate that Chief Hoskin said the creative side of 
this. Every piece of our community can be tended to with Native 
American language support. So a language resource center that 
helps develop all of those abilities to help build capacity for 
communities to reach and build new speakers and new domains for 
our language to be active in is going to be really helpful.
    Then we also talk about an issue with, very specifically, 
with our Native American language schools and programs is again 
this idea around invisibility. There is not a lot of language 
medium schools operating yet in the Country because they are a 
really big thing to take on, to operate all day in a Native 
American language with all these school groups of kids.
    So we often get left out of data. So even if you see pieces 
of studies where they say, Native kids are doing this, this, 
and this, sometimes you don't see language medium school 
students, sometimes you don't see the immersion language nest 
or language school students included in there. Because we are a 
small population within this broader area.
    So being able to look at the Durbin Feeling Language Act 
and really, really develop those ways to collect the data and 
to report it back out is going to show a better picture and 
provide better representation for our Native language efforts 
in a lot of different areas around our communities.
    Senator Hoeven. Thank you. I am sorry, Mr. Chairman, I am 
over my time. I had better stop there. Thank you.
    The Chairman. It was a good question, Senator Hoeven. Thank 
you.
    Chief Hoskin, let's step back just a little bit. Why did 
the Cherokee Nation decide to undertake the Cherokee Special 
Rule Project and do you think a national survey of Native 
languages and speakers as proposed in Durbin Feeling would have 
similar benefits with other Native communities?
    Mr. Hoskin. Thank you, Mr. Chairman. I believe it would. 
The survey of language speakers did something pretty powerful 
here in Cherokee Nation. It seems simple to say, how many 
speakers do we have. We have estimates. But to not only see a 
more accurate number, but to also witness what it meant for the 
speakers, many of whom are on in years, over the age of 70, to 
feel as if they were memorializing their special and unique 
place in the world is really of immeasurable benefit.
    It also though has allowed us to sort of identify where 
across our reservation they live. That is informing some of our 
strategies to not only invest here in our capital of Tahlequah, 
but to look at where we might expand immersion schools, look at 
where we might create new speaker villages close to where they 
live. It is important to keep communities together for so many 
reasons, but particularly language speakers.
    The other thing it did was unexpected when we did the 
speaker survey and began that a couple of years ago. This gets 
a little bit off the topic of language preservation, but still 
relevant. When we put fluent speakers at the front of the line 
for COVID-19 vaccines, we had that document to go by. I am so 
proud to say that even though, in the Cherokee Nation 
reservation, our vaccination rates are far too low, and we are 
making efforts every day to increase that, our fluent speakers 
are vaccinated at a rate of around 70 percent because of the 
efforts we undertook, and because we had that survey.
    It got us thinking about how else we might improve the 
quality of lives of our speakers. Every Cherokee deserves good 
housing, education, and to have a place in the economy that 
works for them. But we have to focus on our speakers, and this 
survey allows us to find them.
    So for so many reasons, some of which were unexpected when 
we started this, it has been a very powerful tool.
    The Chairman. Thank you very much.
    Ms. Harper, at our COVID-19 impacts on Native education 
hearings, one of our witnesses, Dr. Kamana from Nawahi 
Immersion School spoke about the challenges she had both prior 
to and during the pandemic with immersion materials development 
and teacher training. Are these issues that you see popping up 
across your coalition members?
    Ms. Harper. Certainly, Senator. These issues are consistent 
across language medium schools and programs out here.
    As I was just saying, our language medium [indiscernible] 
educators at our site, all of these materials. They are the 
ones creating and delivering the teacher training for their 
local sites, for their languages. We can go anywhere in Indian 
Country and see this happening. They are doing it locally. 
Because they are the world class experts. This is the last 
place where our languages exist. There aren't outside sources 
to go to for these developments and any of this.
    So Native American languages and our cultures are making 
their resources right onsite. We hear that. Any one of the 
other folks who testified here today too would say we hear that 
in national conversations when we talk about Native language 
revitalization issues.
    The Chairman. Thank you.
    My final question, for Ms. Sauve, has ANA heard concerns 
from Native communities about the copyright of Native language 
materials by non-community members? If you have heard about 
this, can we work together on solving this?
    Ms. Sauve. Thank you, Chairman Schatz, for that question.
    We have heard about this in a couple of cases. In fact, we 
wanted to know what we should do about it. So we have had 
tribal consultation last summer, and this was one of the topics 
for ANA. There were definitely mixed recommendations for it. 
Some of the recommendations are that we shouldn't be 
paternalistic.
    So requiring that tribes or others have, the copyright 
belong to the tribe, that was one of the suggestions we 
mentioned. But they said, you know what, that is paternalistic, 
so please just do more education for grantees so they 
understand the risks when they get into partnership.
    So that is what we are doing. We have been doing webinars. 
We addressed it at our National Native Language summit. And we 
are including information about that in our funding 
announcements so that folks can make sure they know that this 
could potentially be an issue and take steps to do it.
    So we would absolutely like to partner with you to 
strengthen the copyright so that the languages remain with the 
people.
    The Chairman. Okay. I don't want to overreact here, but I 
would like to understand the extent of the problem and also the 
extent to which Congress could actually, or the Executive 
Branch, could do anything about it. Let's continue this 
conversation.
    Vice Chair Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Very 
interesting. Hadn't thought about that part of it.
    Another question for you, Acting Director Sauve. We heard 
certainly from Ms. Alvanna-Stimpfle the issue of capacity and 
the fact that small tribes have just limited capacity when it 
comes to writing and managing complex Federal grants to help 
support their language programs. Your testimony talks about the 
tremendous time, effort and resource investment that 
communities have to undertake in order to implement Native 
language projects.
    So just recognizing again, capacity limitations, all that 
we have seen, the additional stressors with this past year due 
to COVID, what has ANA done to alleviate some of these 
burdensome administrative requirements that just compound the 
challenge for some of our tribal communities to be able to 
access these grant opportunities?
    Ms. Sauve. Thank you for that question, Vice Chair 
Murkowski.
    In order to support our current grantees, ANA exercised the 
flexibilities provided through the Administration for Children 
and Families and OMB. We extended reporting deadlines, any 
requests for a carryover budget or no-cost extensions. We also 
streamlined the continuing application process and we worked 
with our Office of Grants Management so we could request enough 
information but not overly burdensome for our current grantees 
to continue to receive funding from ANA.
    I am very happy that we worked across ACF with our General 
Counsel to create a very streamlined application for the 
emergency language awards that will greatly reduce the time and 
effort to apply as well as the reporting burden. So we do 
understand that communities are under extreme stress and are 
trying to alleviate whatever burdens we can.
    Senator Murkowski. So it seems that you are trying to be as 
attentive as possible to that. I appreciate that.
    Let me ask my last question to Ms. Laeha. I want to thank 
you and the rest of the State of Hawaii for hosting our Alaska 
Native language speakers as they are working on their advanced 
studies. I mentioned that in my introduction of Ms. Alvanna-
Stimpfle. As I mentioned earlier to Chairman Schatz, our two 
States have a lasting relationship where Alaska sends Hawaii 
our Native speakers and you send them back ready to train and 
instruct the next generation of Native speakers.
    In your testimony, you discuss the need to formally develop 
a consortium between American Indian, Alaska Native, and Native 
Hawaiian serving institutions that work to support school and 
community-based language revitalization. I guess the question 
to you today would be, what more DOI and ANA programs can do 
working in a coordinated manner to support the development of 
this Native language preservation and this partnership? I look 
at the value and the benefit. I think we can see how that plays 
out between Alaskans and Hawaiians, and how we can do more to 
further this.
    Ms. Laeha. Mahalo for that question.
    I think that we definitely learned a lot between sharing, 
about our resources and our experiences. I do think that these 
two bills that we have here would help to support that.
    In addition, I know that we talked a lot about funding for 
projects like these. A lot of what is coming up, I want to echo 
what everyone is saying, we face similar issues in terms of 
what we have access to, what are staff are required to do.
    So really just leaning into each other and being able to 
share amongst each other is very important. I think paying 
special attention to the other things I brought up earlier, 
which are how we as communities, as indigenous language 
communities, or Native American language communities, define 
what is needed for the program in order for that program to be 
effective. A quality program is a very important point as well.
    Senator Murkowski. Thank you for that.
    To what extent, I know we have all been doing business 
differently, whether it is by Zoom or virtually, we figured 
things out because we had to in this time of pandemic and 
living in different bubbles, working in different bubbles. To 
what extent can these relationships, for instance what we are 
talking about with, between Alaska and Hawaii, benefit from the 
fact that we are just doing so much more virtually? Or is this 
something where you really need to be present and on the ground 
as you are going through these kinds of training?
    Ms. Laeha. I definitely think that all of the communities 
and industries have learned a lot about working remotely and 
what works and what doesn't. I think there are a lot of ways 
that we can collaborate virtually. However, there is just 
something about being in the presence of a thriving language 
program that helps you really understand and believe what is 
possible for your own community. I think that is something that 
we can't say can be achieved as effectively over a virtual 
medium like this.
    Senator Murkowski. Yes. I appreciate what you shared there. 
I think you are probably right, we figured out ways to make it 
work. But it can be made to work better if it truly is that one 
on one.
    Mr. Chairman, thank you. This has been an important 
hearing, again, from so many levels. It is not just the words 
that are spoken, it is the culture that is attached to these 
incredible languages. The ability to highlight that through the 
Committee today is greatly appreciated.
    The Chairman. Thank you, Vice Chair Murkowski.
    If there are no more questions for our witnesses, members 
may also submit follow-up written questions for the record. The 
hearing record will be open for two weeks. I want to thank all 
of our excellent witnesses for their time and for their 
testimony and for their service today.
    This hearing is adjourned.
    [Whereupon, at 4:23 p.m., the hearing was adjourned.]

                            A P P E N D I X

Prepared Statement of Sylvia M. Hussey, Ed.D., CEO, Office of Hawaiian 
                                Affairs
    Aloha e Chairman Schatz:
    Mahalo for the opportunity to provide testimony on the May 26, 
2021, Oversight Hearing on ``Examining the COVID-19 Response in Native 
Communities: Native Languages One Year Later'' and Legislative Hearing 
to receive testimony on S. 989 and S. 1402. Mahalo a nui loa for your 
continued leadership in ensuring the federal government meets its trust 
responsibility owed to all Native Americans, including American 
Indians, Alaska Natives, and Native Hawaiians. Your leadership is 
especially appreciated in the preservation, protection, and promotion 
of Native American languages. We must support the expansion of Native 
American language teaching and learning because language is the key to 
Native culture and identity. As we have seen in Hawai`i, the COVID-19 
pandemic has threatened Native American language survival and the 
programs that support Native American languages. Native American 
language inclusion in federal language programs can help to offset the 
harms inflicted by this pandemic. With this in mind, the Office of 
Hawaiian Affairs (OHA) Board of Trustees (BOT) formally voted on April 
29, 2021, to support your bill, S. 989, the Native American Language 
Resource Center Act of 2021, as it was introduced on March 25, 2021. We 
look forward continuing to work with you and to supporting your work to 
enact this legislation into law.
The Role and Responsibilities of the Office of Hawaiian Affairs
    Established by our state's Constitution, \1\ OHA is a semi-
autonomous agency of the State of Hawai`i mandated to better the 
conditions of Native Hawaiians. Guided by a board of nine publicly 
elected trustees, all of whom are currently Native Hawaiian, OHA 
fulfills its mandate through advocacy, research, community engagement, 
land management, and the funding of community programs.
---------------------------------------------------------------------------
    \1\ HAW. CONST., art. XII,  5 (1978).
---------------------------------------------------------------------------
    Hawai`i state law recognizes OHA as the principal public agency in 
the state responsible for the performance, development, and 
coordination of programs and activities relating to Native Hawaiians. 
\2\ Furthermore, state law directs OHA to advocate on behalf of Native 
Hawaiians; \3\ to advise and inform federal officials about Native 
Hawaiian programs; and to coordinate federal activities relating to 
Native Hawaiians. \4\
---------------------------------------------------------------------------
    \2\ Haw. Rev. Stat.  10-3(3).
    \3\ Haw. Rev. Stat.  10-3(4).
    \4\ Haw. Rev. Stat.  10-6(a)(4).
---------------------------------------------------------------------------
The Federal Trust Responsibility Owed to Native Hawaiians
    As you know, the federal government owes a trust responsibility to 
all Native Americans, including American Indians, Alaska Natives, and 
Native Hawaiians. To meet this obligation to Native Hawaiians, Congress 
has enacted programs and policies to promote education, health, 
housing, and a variety of other federal programs that support Native 
Hawaiian self-determination. Similar to American Indians and Alaska 
Natives, Native Hawaiians have never relinquished our right to self-
determination despite the United States' involvement in the illegal 
overthrow of Queen Lili`uokalani in 1893 and the dismantling of our 
government.
    Over 150 Acts of Congress consistently and expressly acknowledge or 
recognize a special political and trust relationship to Native 
Hawaiians based on our status as the Indigenous, once-sovereign people 
of Hawai`i. Among these laws specifically benefitting Native Hawaiians 
are the Hawaiian Homes Commission Act, 1920, 42 Stat. 108 (1921); the 
Native Hawaiian Education Act, 20 U.S.C.  7511; the Native Hawaiian 
Health Care Improvement Act, 42 U.S.C. ch. 122; and the Hawaiian 
Homelands Homeownership Act codified in the Native American Housing 
Assistance and Self Determination Act, Title VIII, 25 U.S.C.  4221.
Background on the History of `Olelo Hawai`i
    In pre- and post-contact society, Native Hawaiian cultural 
practitioners passed down traditional practices orally through `Olelo 
Hawai`i (Hawaiian language). Native Hawaiian society and the Kingdom of 
Hawai`i valued education for its people. In addition to the oral 
cultural education passed down through generations, `Olelo Hawai`i 
became a written language and was the medium in schools established in 
the Kingdom of Hawai`i. In the 1800s, over 250 Hawaiian language medium 
schools were in operation. During that time, almost all Native 
Hawaiians were literate, and the Kingdom boasted one of the highest 
literacy rates in the world.
    The overthrow of the Hawaiian Kingdom and United States' 
participation in the overthrow changed the trajectory of `Olelo Hawai`i 
and Native Hawaiian education. During this time, the United States 
maintained control over the government of the Territory of Hawai`i. The 
President of the United States appointed the Territorial Governor who 
in turn appointed the Territorial Board of School Commissioners. The 
President also appointed the Territory's non-Article III judges, and 
the United States Congress maintained the right to amend or invalidate 
laws passed by the Territorial Legislature. American-run schools banned 
the speaking of `Olelo Hawai`i on campuses. The federal government also 
enforced a policy of assimilation upon the Native Hawaiian people 
similar to those forced upon American Indian and Alaska Native 
communities during that same era. By the 1960s, `Olelo Hawai`i was near 
extinction. Only 2,000 speakers remained in the 1980s. However, around 
that time, the Hawaiian Renaissance began to take hold and Native 
Hawaiian leaders worked tirelessly to revive Native Hawaiian 
traditional practices and `Olelo Hawai`i.
    In 1983, Native Hawaiian leaders and community members created 
Punana Leo, a Native Hawaiian immersion preschool. The first group of 
students educated entirely in `Olelo Hawai`i graduated from high school 
in 1999. Their success was the direct result of continued advocacy from 
the families involved with the immersion school movement. Hawaiian-
medium education has grown since those early days, and it is now 
possible to receive an education in `Olelo Hawai`i from preschool 
through doctoral program. These programs not only revitalized Native 
Hawaiian traditional practices and `Olelo Hawai`i, but they also 
continue to offer students a sense of connectedness and place through 
this education system. Despite the successes of these programs, the 
COVID-19 pandemic has placed unprecedented burdens on Native American 
language programs and tested the survival of Native American languages. 
The successes of these programs, and the extensive impact of the COVID-
19 pandemic on them, emphasize the need to continue to include Native 
American languages in language programs across the federal government.
Supporting the Native American Language Resource Center Act
    Native American language preservation, protection, and promotion is 
a critical component of honoring the trust responsibility owed to 
Native Americans. The U.S. Department of Health and Human Services 
already administers several Native American language programs through 
the Administration for Native Americans. However, Native American 
languages should be supported through programs administered across all 
federal agencies. More work is needed to include Native American 
language education in general federal language programs.
    To this end, OHA supports the incorporation of Native American 
languages into Title VI of the Higher Education Act of 1965 (20 U.S.C. 
  1123, 1132-37) by creating the Native American Language Resource 
Center (NALRC) within the International and Foreign Language Education 
(IFLE) office in the Office of Postsecondary Education at the U.S. 
Department of Education. This office is well-equipped with the 
knowledgebase to administer the NALRC in addition to existing Language 
Resource Centers. IFLE programs support domestic and international 
language instruction, professional development for educators, and 
curriculum development for education at all levels. These programs 
expand access to language learning, particularly in underserved 
communities, and support teaching and research on critical world 
language issues, among other things. Language Resource Centers, in 
particular, allow for the development of language learning materials; 
provide professional development; and conduct research to strengthen 
language teaching and learning.
    Again, mahalo a nui loa for the opportunity to provide testimony 
for the record and for your continued support of the Native Hawaiian 
people and Native American language preservation programs. As we slowly 
emerge from the pandemic, we must rebuild and recover. Supporting 
Native American language programs will help to restore Native identity 
through language preservation, protection, and promotion. We hope that 
you will incorporate Native languages into federal language programs 
across all agencies.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Ben Ray Lujan to 
                             Michelle Sauve
    Question 1. In 2020, I was proud to work with Sen. Udall to pass 
the Esther Martinez Native American Languages Programs Reauthorization 
Act into law. This law made important changes to the Administration for 
Native Americans language grant programs, including the Esther Martinez 
Immersion and Preservation & Maintenance grant programs, to reduce 
class sizes for Native American Survival Schools (for school age 
children from 15 to 10 students and for students under age 7 from 10 to 
5 students) and extend the maximum grant period (from 3 to 5 years). 
Ms. Sauve, how have the smaller class sizes and longer grant period 
benefitted grant recipients of both programs, especially during the 
pandemic?
    Answer. In the two years since the Esther Martinez Native American 
Languages Programs Reauthorization Act has passed, we have yet to 
gather and analyze enough data to indicate how this reauthorization may 
have benefitted these new EMI programs in terms of longer project 
periods or smaller class size. We receive consistent feedback from our 
grantees in support of small classroom instruction and anticipate 
increased benefits from the reauthorization.
    Our grantees continue to stress that smaller classroom sizes and 
longer grant periods increase learning benefits and to make survival 
schools more accessible to communities. Our grantees have voiced that 
the speaker to learner ratio should not exceed 1:7 with ideally two 
speakers of the target language so that the learners can hear speakers 
conversing, not just speaking didactically. A small classroom size 
allows children to deeply engage with teachers and allows teachers to 
create specialized learning plans for their students.

    Question 2. In 2019, the Ohkay Owingeh Department of Education was 
awarded the Administration for Native Americans Native Languages 
Preservation and Maintenance Grant for the funding years 2019-2022. The 
Ohkay Owingeh Tewa Language Program has benefited tremendously from 
being awarded the ANA Language Preservation and Maintenance Grant and 
the Pueblo is grateful that they are able to keep Esther Martinez's 
legacy of language preservation efforts alive in her home of Ohkay 
Owingeh. This program was one of two reauthorized in the Esther 
Martinez Native American Languages Programs Reauthorization Act, named 
for Esther Martinez who led her life to further language preservation 
in her own Pueblo of Ohkay Owingeh. Thanks to the changes included in 
the reauthorization that allowed for smaller class sizes of grantees, 
current and future grantees have been able to host smaller, in-person 
classes. Ms. Sauve, what benefits have you seen to allowing for smaller 
class sizes for program grantees of both the Esther Martinez Immersion 
and the Preservation & Maintenance grant programs?
    Answer. Our grantees from both the EMI and P&M projects emphasize 
that smaller class sizes are always favorable. Increased participation 
and individually focused curriculum allow students to deeply engage 
linguistically and culturally. We have visual confirmation that small 
classroom sizes allow creativity in lesson planning such as teaching 
cultural traditions in tandem with language education. Grantees have 
brought culturally specific lesson plans such as pottery lessons, or 
cooking classes, into their language classrooms. Moreover, they 
emphasize that it is important to engage students in their language, 
but also the language's inherent connection to cultural activities. 
Such creative lesson plans would not have been possible with a large 
number of students due to budgetary or logistic concerns.

    Question 3. Ohkay Owingeh has hosted Tewa classes during the 
pandemic by bringing back a small group (capped at five people) 
consisting of Tribal and community members and two Tewa teachers. They 
have also been able to host two groups of five youth participants in 
their Tewa Summer Youth Program. Ms. Sauve, how has the Administration 
for Native Americans changed program guidelines and reporting during 
the pandemic to allow for flexibilities for grantees like Ohkay 
Owingeh?
    Answer. We applaud the persistence and creativity of projects that 
yield innovative ways to offer continuing services. Our program 
specialists and technical assistance providers work closely with 
grantees to ensure that changes in activities or approach are still in 
line with the overall goals and objectives of their funded project.
    We recognize that the COVID-19 pandemic has put a strain on tribal 
resources and personnel. The Administration of Children and Families 
has released several iterations of grant policy flexibilities. Notably, 
we have allowed flexibilities regarding reporting deadlines, and 
increased time for expiring No-Cost Extensions. Increased time for 
reporting allows ample time for recipient assessments, the resumption 
of many individual projects, and a report on program progress and 
financial status. Expiring no-cost extensions also allow for an 
additional 12 month project extension to finish project activities and 
spend funds. It is our priority to assist tribes in ensuring that they 
have ample time to complete their project successfully. Per HHS pre-
existing funding guidelines, grant recipients are able to reallocate up 
to 25 percent of their budget within existing line items without prior 
approval, so this is an additional flexibility that allowed the 
projects that had travel budgeted into their projects to reallocate 
those resources to other areas.

    Question 4. Ms. Sauve, many of our witnesses noted the impact that 
the loss of fluent speakers has had on language preservation efforts. 
Noting this, there is a role for digital media to play in building 
healthy language communities in the wake of this pandemic. Ohkay 
Owingeh Pueblo, for example, has created a Tewa Zoom Class to allow 
Tribal and community members to continue to learn their language and 
culture while maintaining social distancing guidelines during the 
pandemic. These virtual class offerings have enabled the Pueblo to 
bring their language and culture to Tribal members who live out of 
state, including those in Arizona, California, and Connecticut. 
Additionally, Ohkay Owingeh began recording and saving all Tewa zoom 
classes to external hard drives to kick start the process of digitizing 
its language and culture instructional materials. Ms. Sauve, what is 
the Administration for Native Americans doing or plan to do to support 
Tribal Nations who wish to digitize or transfer language materials to 
new media? And what is the Administration for Native Americans doing to 
educate grantees on the dangers of allowing access to digital language 
materials to non-authorized users?
    Answer. The pandemic has brought about a unique opportunity to 
engage students and teachers with digital material. We have seen 
increased participation through digital language learning platforms 
that can reach new language learners who would previously have been 
unable to attend in person classes. ANA recognizes the creative 
benefits of digital language materials and encourages grantees to 
prepare for virtual learning. We have encouraged investment in digital 
technology through allowing flexibilities to adjust their budgets to 
allow for additional purchasing of equipment, or technological 
training.
    ANA highly encourages tribes to be aware of their rights to 
intellectual property rights and data sovereignty. In the past, we have 
provided trainings at grantee meetings and webinars through ANA's 
Training and Technical Assistance centers. In addition, ANA included a 
statement in all FY 2021 FOAs encouraging applicants to educate 
themselves on intellectual property rights and the protection of 
ownership of Native language materials, ceremonies, music and dance, 
and other forms of knowledge and cultural practices that originate from 
Native communities. However, due to the variety of laws, rights, and 
jurisdictions of these matters, ANA leaves this up to the discretion of 
grantees and applicants.

    Question 5. Despite COVID-19 challenges, Ohkay Owingeh and all 
Tribal Nations remain committed to cultural traditions and practices. 
For example, the Ohkay Owingeh Community School, and their Ohkay 
Owingeh Head Start, continued Tewa Zoom class sessions for Head Start 
and elementary students as a way to connect students with each other 
focused on Tewa curriculum during the pandemic. Tewa teachers, who 
teach in all grades and various styles of classes, have been innovative 
and creative with teaching language and traditions. The Administration 
for Native Americans grant is a step toward supporting their larger 
goal of Tewa fluency and cultural engagement, but right now the 
Administration is only able to support a handful of grantees like Ohkay 
Owingeh through its competitive grant process. However, with the 
historic decision to allocate funding to all Tribes that opt in thanks 
to $20 million provided in the American Rescue Plan, the administration 
stands to make an incredible impact on Native language programs across 
the country. How will the Administration for Native Americans document 
and share the impact that this funding will have on potentially 
hundreds of Tribes during the pandemic?
    Answer. ANA will require ARP emergency language award recipients to 
submit a post project report. In this report, ANA will ask grantees how 
the funds helped their communities use language and culture 
revitalization to recover from the devastating effects of COVID-19. 
Grantees will also be asked about how the materials created, teachers 
trained, and student instruction helped preserve and protect their 
Native language. ANA will compare data from the applications describing 
the current condition of the language prior to the community receiving 
funding with a post-project data survey. This will allow us to measure 
the impacts of the funding on the community and language and share the 
story of this distinct set of grantees.

    Question 6. You note that the Administration for Native Americans 
was only able to fund 11 of the 75 applications between both of its 
programs in the most recent year. How many Tribal Nations were served 
by funded applications out of all the Tribal Nations represented in the 
entire applicant pool? And what was the average funding amount per 
applicant in the most recent fiscal year?
    Answer. Of the 11 new awards last year, ANA was able to fund five 
out of the 42 applications from Tribal Nations. The average funding 
request for FY 2020 was $228,202 for both EMI and P&M.

                                  [all]
</pre></body></html>
